<html>
<title> - THE TRUMP ADMINISTRATION'S FOREIGN POLICY: A MID-TERM ASSESSMENT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                       THE TRUMP ADMINISTRATION'S
                 FOREIGN POLICY: A MID-TERM ASSESSMENT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 27, 2019

                               __________

                           Serial No. 116-10

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
      

       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-367PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2f5f406f4c5a5c5b474a435f014c404201">[email&#160;protected]</a>                                
                       

                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas 
                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Honorable Madeleine K. Albright (Former Secretary of State)......    10

                                APPENDIX

Hearing Notice...................................................    57
Hearing Minutes..................................................    58
Hearing Attendance...............................................    59

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

Submission from Chairman Engel on behalf of Amnesty International    60

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Question for the record submitted from Representative Yoho.......    73

 
                       THE TRUMP ADMINISTRATION'S
                 FOREIGN POLICY: A MID-TERM ASSESSMENT

                      Wednesday, February 27, 2019

                          House of Representatives,
                      Committee on Foreign Affairs,
                                                     Washington, DC

    The committee met, pursuant to notice, at 10:11 a.m., in 
Room 2172, Rayburn House Office Building, Hon. Eliot L. Engel 
(chairman of the committee) presiding.
    Chairman Engel. The committee will come to order.
    Without objection, all members may have 5 days to submit 
statements, questions, extraneous materials for the record 
subject to the length limitation in the rules.
    I must say, Madam Secretary, I have been on this committee 
a long time, and I have never heard it so quiet at the start, 
so I think that is a tribute to you and everybody feeling that 
we want to hear what you have to say. And it is almost as if 
royalty stepped in here for a little while. So thank you so 
much for being here.
    As we have so far, this committee will continue to grapple 
with the most immediate and critical challenges around the 
world. At the same time, I think it is important that we take a 
step back and look more broadly at the overall state of 
American leadership and foreign policy and to lay out our own 
vision and ideas.
    As we conduct that assessment of the Trump Administration's 
foreign policy, we are honored to welcome one of our country's 
most accomplished and thoughtful foreign policy minds, former 
Secretary of State Madeleine Albright.
    Thank you, Secretary Albright, for joining us today to 
share your insight. Welcome back to the committee. Welcome also 
to members of the public and the press.
    It will be no surprise that I have deep concerns over the 
direction American foreign policy has taken in the last 2 
years. We have been walking away from international 
obligations. It has called into question America's commitment 
to our alliances and core values. It has alienated our friends, 
emboldened our adversaries, and cozied up to strongmen and 
dictators and the people on the front lines of American foreign 
policy. Our diplomats and development experts have been pushed 
to the side.
    It is also a foreign policy that weakens and isolates the 
United States and makes us feel less safe. When we are not 
respected around the world, when we denigrate allies and flout 
international norms, it makes us less able to build the 
partnerships and coalitions that are essential for advancing 
our interests and, more importantly, ensuring our security.
    Now, it is easy to stand on the sidelines and complain, but 
I think if we are going to criticize what we do not like, we 
also have a responsibility to offer an alternative. And there 
are a few big things that I think would shape such an 
alternative. They represent what I consider to be the pillars 
of a successful, uniquely American foreign policy.
    The first has to do with American values. When we are at 
our best, American values are at the center of our foreign 
policy. Of course, we always have to prioritize the security of 
the American people, and one of the ways we do so is by 
supporting and advancing human rights, democracy, the rule of 
law. Our foreign policy should reflect our country's spirit of 
generosity and compassion, the foreign assistance and 
development efforts that help countries and communities lift 
themselves up. These are the right things to do. They improve 
people's lives and burnish the values that make our country an 
inspiration. They show the world our character and bring other 
countries on to our side as partners.
    And that brings me to the second major thing: working 
together with other countries. For American foreign policy to 
succeed, we need to be able to work with a wide range of 
friends and allies. Our alliances and partnerships underpin our 
ability to diffuse crises, to respond to disasters, to push 
back against aggressive regimes, and other threats. 
Multilateral organizations and agreements helped shape the 
world in the second half of the 20th century, and the United 
States has traditionally played a leading role under 
administrations of both parties. As powerful as our country is, 
we are even stronger when we work with others focused on the 
same priorities. We are better at combating threats from 
overseas, whether it is violent extremism, a deadly pandemic, 
or climate change, when we are standing shoulder to shoulder 
with our friends and allies.
    And finally, the third theme. How will we pursue our 
foreign policy goals, and who will be responsible for it? The 
way I see it, we need to elevate diplomacy and development, 
because whether or not they are treated this way, they are 
absolutely essential to our national security. Seeing more and 
more traditionally civilian diplomatic responsibilities slip 
away to the Pentagon or the intelligence community has always 
been a major frustration for me. In all fairness, this trend 
started well before the current administration. We would not 
ask our diplomats to do the job of our uniformed 
servicemembers, and we should not be asking our servicemembers 
to do the things that our diplomats and development experts are 
trained to do, from conflict prevention to security assistance 
to face-to-face negotiations.
    In the last 2 years, a bad situation has gotten worse. The 
administration has chased some of our most seasoned diplomats 
to the exits. They have left important senior national security 
positions vacant. They have ignored the expertise of career 
officials and sent morale plummeting at the State Department. 
These committed men and women are on the front lines of 
American foreign policy. What can they possibly think when the 
people calling the shots try to slash their budget by a third?
    We need to make it clear to these dedicated public servants 
and to the rest of the world that the United States understands 
the value of diplomacy, and we need to give our personnel the 
support and resources they need to carry out this important 
work.
    I intend to pursue an agenda built around these three major 
themes. I look forward to working with our members to find ways 
to do that, and I am eager to hear Secretary Albright's views 
on where we go from here to build a successful foreign policy. 
Secretary Albright has always been my favorite, the words, the 
pearls of wisdom that come from her mouth. . . just a wonder to 
behold. It is good to hear it.
    So we look forward, Madam Secretary, and I will yield to my 
friend, the ranking member, Mr. McCaul of Texas, for any 
opening remarks he might have.
    Mr. McCaul. And thank you, Mr. Chairman.
    Welcome, Madam Secretary. It is good to see you again. I 
look back on our dinner at the Munich Security Conference last 
year, and I cherish that a great deal. We appreciate you being 
here today to impart your wisdom on this committee.
    Over the last 2 years, I think the President's 
administration has implemented a forward-leaning foreign policy 
agenda. Right now, the President is in Vietnam to meet with 
North Korean leader Kim Jong-un. North Korea has launched--has 
not launched a missile or tested a nuclear device since the end 
of 2017. They have freed American hostages and returned the 
remains of missing soldiers. These are all positive 
developments. However, previous administrations, as you know, 
have negotiated with North Korea unsuccessfully. The regime in 
P'yongyang has a record of making empty promises in return for 
sanctions relief.
    I strongly urge the administration to continue the maximum 
pressure campaign we have for complete verifiable and 
irreversible denuclearization of the Korean Peninsula. I remain 
hopeful but also realistic and somewhat skeptical. There are 
few threats as dangerous as nuclear weapons in the hands of a 
rogue regime.
    On Iran terrorism in Israel, I strongly support the 
decision to withdraw from the Iran deal. This was a flawed 
agreement, in my judgment, that provided over $100 billion to 
the world's leading sponsor of terror. The inspections were not 
aggressive enough, set clauses that provided legitimacy for a 
future nuclear program, and the last administration, I believe, 
wanted a deal too badly, and we are less safe today because of 
that.
    This administration has also made crushing Islamist 
terrorism a top priority. As a former chairman of the Committee 
on Homeland Security, I have seen the rise and fall of the so-
called caliphate. Now ISIS truly is on the run, but it is still 
a very real threat. I urge the administration not to withdraw 
our forces from Syria and Afghanistan until ISIS and al-Qaeda 
are completely destroyed.
    Any strategy for the Middle East must also include 
maintaining strong ties with Israel. I look forward to moving 
important legislation with the chairman to do just that.
    On China and Russia. There are many dynamic threats in the 
world today, and we are increasingly under threat from China 
and Russia. The Chinese Government steals our intellectual 
property, threatens Taiwan, preys upon underdeveloped nations 
through their Belt and Road Initiative. China is an adversary, 
and I am pleased that the current administration is confronting 
Beijing over its trade practices and military adventurism.
    Under Vladimir Putin, Russia has invaded Georgia and 
Ukraine and attacked the democratic systems of other countries, 
including our own and our own elections. I fully support the 
sanctions placed on Russia for meddling in the 2016 election.
    A great deterrent to Russian aggression is a strong NATO. 
Thanks to pressure from the President, more of our allies are 
beginning to increase their defense spending. This is bad news 
for Vladimir Putin and a great policy achievement for the West. 
Finally, I applauded the administration's decision to withdraw 
from the INF Treaty due to lack of Russian compliance, and it 
is interesting that our NATO allies agreed.
    On Venezuela, the current crisis in our Western Hemisphere. 
In our own hemisphere, the current situation in Venezuela is 
deeply disturbing. The socialist dictator policies of Nicolas 
Maduro have turned the country into a failed mafia cartel 
state. With little food and medicine, millions of people fled 
the country. Maduro's armed thugs are now doing everything they 
can to stop the delivery of humanitarian aid. They have blocked 
bridges and roads. They have shot innocent civilians and set 
aid packages on fire. And yet as Venezuela burns, there are 
still people in America and around the world who defend and 
promote socialism.
    To see the dire suffering that comes from socialism, look 
no further than the chaos in Caracas, or the Soviet Union, or 
any history book. I commend the President for supporting the 
people of Venezuela in their quest to take their country back 
from Maduro and his crimes. I believe our Congress needs to 
directly recognize Interim President Juan Guaido and support 
his calls for a free and fair election. We are committed to the 
personal safety as well of Guaido, which I am very concerned 
with, and his family. In fact, we met with the Vice President 
yesterday who expressed his concerns about the safety of 
President Guaido. And I am sure all of us here share those 
sentiments.
    Madam Secretary, again, it is a great honor to welcome you 
here this morning. You have been a tireless diplomat for many 
years, and your personal story is inspiring really to all of 
us, so I look forward to hearing your testimony. As the 
chairman and I always say, partisanship on this committee 
should end at the water's edge. These hearings give us a chance 
to put these politics aside and offer solutions to very, very 
complex issues in what is becoming an increasingly dangerous 
world.
    And with that, Mr. Chairman, I yield back the balance of my 
time.
    Chairman Engel. Thank you, Mr. McCaul.
    So let me start with the introduction. Our witness needs no 
introduction, but I will introduce her anyway. Madeleine 
Albright, first and foremost, is a great friend of mine, and I 
am honored to call her my friend. She served as Secretary of 
State from 1997 to 2001, the first woman in American history to 
be nominated as America's top diplomat. She had earlier served 
as our Ambassador to the United Nations and was a member of 
President Carter's National Security Council.
    She is now chair of Albright Stonebridge Group, a global 
strategy group here in Washington, as well as a professor in 
the practice of diplomacy at the Georgetown University School 
of Foreign Service; chair of the National Democratic Institute, 
or NDI, for International Affairs; and president of the Truman 
Scholarship Foundation. She sits on the Department of Defense's 
Defense Policy Board, as well as the board of the Aspen 
Institute.
    So, Madam Secretary, we are delighted to have you with us 
this morning, and I now recognize you for your opening 
statement.

   STATEMENT OF THE HONORABLE MADELEINE K. ALBRIGHT (FORMER 
                      SECRETARY OF STATE)

    Ms. Albright. Chairman Engel and Ranking Member McCaul, 
members of this committee, thank you so much for having me 
here, and good morning. And I do want to start out by saying I 
believe in a bipartisan foreign policy. I think it is very 
important. I am pleased to be here, and I appreciate the chance 
to offer my perspective on the many challenging issues before 
the committee, and so let's begin with some context.
    We live in a world being reshaped for better and for worse 
by two major interrelated trends. The first is globalization, 
which has brought people closer together than ever before and 
enabled us to travel, trade, and share ideas at an 
unprecedented rate. But for all its benefits, globalization is 
also threatening and faceless. Many people worry that they will 
lose their livelihoods to foreign competition and their 
separate identities to some vast, faceless, multicultural sea. 
And while I believe patriotism is a virtue, I am very concerned 
about the rise of a kind of nationalism that equates an 
affinity for us with a hatred of them.
    The second trend is the constant march of technology, which 
has helped the world to become more efficient and broadened 
access to knowledge, food, medicine, and markets. Whenever I am 
in Africa, for instance, I am amazed at the difference that 
cell phones have made to farmers and entrepreneurs and 
healthcare professionals, especially women. But technology, 
too, has a downside.
    A network that can disseminate truth can spread lies just 
as rapidly. And the rise of social media has enabled people 
everywhere to share their grievances both instantly and 
globally.
    We thought technology would help democracy by amplifying 
people's voices, but it has also disaggregated them. It fueled 
protest movements such as Tahrir Square in Egypt, but did not 
help those protesters make the transition to governance. In 
fact, technology has made governing more difficult and given 
demagogues another tool to build emotional bonfires out of the 
kindling of lies, prejudice, and paranoia.
    These megatrends, for better and worse, are making the 
world more turbulent and generating disorder in practically 
every region. They were in evidence long before the advent of 
the Trump administration and, beginning in 2017, would have 
confronted any new Commander in Chief with vexing foreign 
policy challenges.
    But the question before the committee today is where does 
America stand in 2019? And more especially, what has President 
Trump's foreign policy meant for the security and prosperity of 
the United States?
    Now, as you have been told, I am a professor at Georgetown, 
and if I were grading Mr. Trump, I would begin charitably and 
mark many of his efforts as incomplete. For example, he kept 
his promise to negotiate a revised trade deal with Canada and 
Mexico, although he did create a lot of animosity with our 
closest neighbors. His administration's heavy-handed approach 
to China could produce gains, and there have been signs of 
progress in recent days. His engagement with North Korea and 
Kim Jong-un has yielded scant dividends to date, but talking is 
definitely better than fighting. And I hope that the summit 
that is now underway in Vietnam will, unlike the earlier one in 
Singapore, generate real and tangible progress toward the 
denuclearization of North Korea.
    Afghanistan is another area where, to its credit, the 
administration is now pursuing a diplomatic strategy. But it is 
far too soon to tell whether we can responsibly end the 
conflict with a political settlement that would benefit the 
Afghan people and, therefore, America's interests. In the 
Middle East, the administration has been promising for 2 years 
to unveil an innovative plan for peace, and we cannot judge 
what we cannot yet see.
    Finally, in Venezuela, the administration is right to press 
for democratic change, and we can all see the situation there 
is tense and complicated. The United States should not do 
anything that inadvertently strengthens Maduro's hand. We 
should continue to work closely with colleagues in the region, 
while upholding the principle that the Venezuelan people alone 
have the right to determine their future.
    Now, that is the good news. In other areas, the 
administration's record is marked by confusion and 
inconsistency, a lack of diplomacy and, in some cases, a 
complete abdication of responsibility.
    On Iran's nuclear program, climate change, Trans-Pacific 
trade, and the INF Treaty, this administration has chosen to 
renounce the efforts of previous administrations, both 
Republican and Democratic, and I believe each of these 
decisions was a mistake. Much of the Middle East is a 
tinderbox, and even the most seasoned foreign policy experts 
have trouble keeping track of who is on whose side as powers 
such as Russia, Turkey, Iran, and the Gulf States compete for 
influence.
    On Syria, we appear to be pursuing several policies 
simultaneously, confusing our allies, delighting our 
adversaries, and putting at risk the significant gains made 
since 2014 in the fight against ISIS.
    In Saudi Arabia, the President and Secretary of State have 
aligned themselves with a leader thought by our own 
intelligence agencies to have authorized the murder of a 
journalist. Henry Kissinger used to talk about the importance 
of diplomacy of constructive ambiguity, but there is nothing 
either ambiguous or diplomatic about a bone saw.
    Mr. Chairman and members of the committee, having just been 
with many of you at the Munich Security Conference, I can 
attest to my sadness at the state of relations between the 
United States under this Administration and our allies in 
Europe. I do not, by any means, absolve Europe of all blame for 
the disagreements and misunderstandings that exist. We are 
right to ask more of them, especially in the form of 
contributions to our common defense. I do think, however, that 
we can make our points more productively without bullying, name 
calling, and threats. If we are not friends with our friends, 
to whom will we turn for help?
    In that context, even many in the administration are in the 
dark about the President's conversations with Vladimir Putin. 
Meanwhile, Russia continues to play a spoiler role in the 
Middle East, while working to undermine democracies around the 
world. And China must be getting very fat because its One Belt, 
One Road initiative is larger and larger, having influence in 
regions such as the Middle East and Africa that are crucial to 
the future of the global economy.
    I have more general concerns. The course I teach is about 
foreign policy decisionmaking process. My students look at how 
information has been gathered, options weighed, and actions 
decided on at key points in American history.
    Today, I am not sure we have a policy decisionmaking 
process. Vacancies persist across the spectrum of national 
security agencies. We still have no Ambassadors in, among other 
very important countries, Egypt, Jordan, Mexico, Pakistan, 
Saudi Arabia, South Africa, Thailand, and Turkey. With the 
dangerous confrontation underway between two nuclear armed 
States in India and Pakistan, we may soon get to see whether 
this administration is equipped to manage a serious 
international crisis.
    I recently attended a U.N. conference on migration. Among 
those present were high level representatives from China and 
Russia. The chair set aside for the United States was empty. 
Worldwide, there are more refugees huddled in camps than there 
have been since the Nazi surrender almost three-quarters of a 
century ago, and yet the United States is less welcoming to the 
international homeless than at any point in modern history.
    Throughout the lifetime of my generation, people around the 
world have been able to look to the United States as the single 
most powerful leader on behalf of democracy, human rights, and 
the rule of law. We have never been perfect, but we have always 
been present. And we have always taken our responsibilities 
seriously because we have seen firsthand the cost of 
abdication, holocaust, and global war.
    Today, the enemies of freedom smell something in the air 
that gives them hope, the odor of America's absence, and the 
impression that our leader shares their disdain for democracy. 
All in all, the situation is both sad and dangerous. This 
administration still has time to awaken, but my greater hope is 
with you, the men and women of the new Congress.
    Again, as I tell my students, many of the tools we have 
available to advance our interests in the world, including 
sanctions, trade agreements, and the use of military force, 
depend on Congress to be activated. Congress also plays an 
essential role by providing resources for defense, diplomacy, 
development, and democracy programs, which are crucial to the 
success of our foreign policy. I have met with enough Members 
of Congress from both parties to know that you did not come to 
Washington to preside over an abdication. You want America to 
lead.
    And as you know, the powers of the legislative branch are 
set out in Article I of the Constitution. Well, 2019 is Article 
I time. You can, you must help us put us on the right path. So 
I urge you to use your powers of oversight and your influence 
with the public to ask the right questions and to hold the 
executive branch accountable.
    I commend this committee and Chairman Engel for your 
leadership in working to end U.S. involvement in the war in 
Yemen, as well as the bipartisan legislation which recently 
passed reaffirming U.S. support for NATO. I ask you to continue 
to protect essential funding for diplomacy, development, and 
democracy in the face of the administration's efforts to defund 
the State Department.
    As chairman of the National Democratic Institute, I have 
seen the benefits of these programs firsthand and can tell you 
that they are some of the most cost-effective ways of advancing 
our interests around the world. I ask you to reassure our 
allies in Europe that America will continue to stand with them 
and for the democratic values that are at the heart of the 
Trans-Atlantic Partnership. Engage with foreign counterparts 
wherever possible, including through official travel 
delegations. I so believe in the codels.
    Finally, never forget that when we work together across 
party lines, we set an example for other democracies, both 
established and emerging.
    At the beginning of the year, I had the pleasure of 
traveling down to Williamsburg for the congressional Research 
Service Orientation, which new Members of both parties 
attended, and it was so interesting. People had their badges on 
with their names and their States but not their parties. We had 
very interesting discussion.
    There is no masking over some of our differences, but I do 
believe in the importance of bipartisanship and the powerful 
signal that such cooperation can send to the world, and that is 
why I have recently invested time and effort in two initiatives 
that may be of interest to this committee.
    The first, a Declaration of Principles for Freedom, 
Security, and Prosperity was launched at the Munich Security 
Conference with the goal of rallying the democratic world on 
behalf of common values. More than 70 years have elapsed since 
the Atlantic Charter was issued and the Universal Declaration 
of Human Rights was adopted. Perhaps we started taking some of 
these principles for granted. So the time is right to renew our 
vows and to engage a new generation in freedom's cause.
    The second initiative is the U.S. Institute of Peace Task 
Force on Extremism and Fragile States, which is co-chaired by 
Governor Kean and former Congressman Lee Hamilton. Yesterday, 
we launched a report which called on the United States to adopt 
a long-term strategy of prevention, addressing the underlying 
conditions that fuel extremism in the first place by better 
coordinating U.S. efforts and pooling international resources 
to support partners in fragile States.
    In the interest of time, I would like to submit both 
documents, the Declaration and the Task Force report, for the 
record, and I would be very happy to answer questions about 
either of these efforts.
    Mr. Chairman, Ranking Member McCaul, members of the 
committee, we meet at a moment of great uncertainty and global 
turbulence. We are in a new era, and we need to work together 
to build a consensus on what America's position should be in 
the world. For my part, I believe that America must remain the 
indispensable Nation, but there is nothing about the word 
``indispensable'' that means alone. We can and must act in 
partnership with like-minded countries to advance our common 
interests, to build a world that is more prosperous, secure, 
and free, and your continued leadership is essential if we are 
to achieve that goal. It is Article I time.
    Thank you very, very much.
    [The prepared statement of Ms. Albright follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Well, thank you very much, Madam Secretary. 
As usual, I so appreciate your remarks and so agree with 
virtually everything you said.
    You mentioned that you had just come back from the Munich 
conference, as I did, and we saw each other there. And then 
afterwards, I went to Brussels, with the Speaker, to look at 
NATO and interact with NATO and the European Union. And one of 
the things that really saddened me and worried me at the same 
time is the message that we are sending or the administration 
is sending to our friends and allies, our closest friends and 
allies across the world that somehow or other, we do not value 
the alliances, that somehow or other, we want to go it alone. 
We do not want to work as closely with them as we have in the 
past.
    The President, when he first became President, said that 
NATO was obsolete, and we found a palpable concern about our 
allies--with our allies who are confused as to where the United 
States stands. Are we actually pulling away? Do we not take 
NATO or the European Union to heart the way previous 
administrations in both parties, frankly, have done in the 
past?
    So I am wondering if you could just give us your 
observation of what you saw in Munich and what you heard from 
our allies, the concerns, the worries. I would appreciate it 
very much.
    Ms. Albright. I was born in Europe, and I came to the 
United States when I was 11 years old. NATO was created as a 
result of what was happening in central and eastern Europe as 
the Russians were putting together their empire, and it was not 
until the coup, the communist coup in February 1948 in my 
native Czechoslovakia that NATO came into existence. I have 
been a believer in NATO from day one, and I was very honored to 
have been asked to work on the 60th anniversary of NATO on a 
new strategic concept.
    I think NATO is an essential alliance, and our part in it 
is obviously key. I think we have confused our allies, and that 
is something that is very troubling. And by the way, we used 
NATO, with your help, in the Balkans. It played a very 
important role in ending ethnic cleansing, and I think that we 
are stronger in that partnership.
    What was very troubling for me at the Munich conference 
this time, and I have been to many of them, is we are always 
the subject of discussion but never kind of a sense that who 
are we, what are we doing, what are our goals? And therefore, I 
think it was so important that there were so many of you there, 
50 Members of Congress that were there, I think in order to 
explain that America is America. And we do know that we have 
shared responsibility and that the NATO alliance is very 
important.
    What is interesting is that when we were doing the 60th 
anniversary of NATO, it was when all the NATO activities were 
what is known as out of area. NATO is now back in area trying 
to deal with the threats that are coming from Russia. And so it 
is, in many ways, back to some of the beginnings of it and more 
important than ever. And I do think that it is very important 
for all of us that believe in partnerships to deliver that 
message, because I was very worried about what I saw in Munich.
    Chairman Engel. Thank you. In your testimony, you talked 
about confusion at the State Department. I want to address 
that, because this committee has gone on record as opposing 
these draconian cuts, 31 percent, and in fact, in negotiations 
with the House, we were able to restore almost all of the cuts 
that we did not like. Both parties did it, because we had a 
Republican majority in Congress last time, and they fought this 
just as much as we are fighting it now.
    But what has happened is morale at the State Department has 
really plummeted, and the number of Americans seeking to join 
the U.S. diplomatic corps has declined during the Trump 
administration to its lowest level since 2008, according to 
State Department numbers reported this week. And we continue to 
hear reports of individuals at all levels choosing to leave 
their careers at the State Department because of low morale. I 
mean, the State Department is diplomacy. You want to fund 
diplomacy so there is not war. We have had the opposite, 
funding the defense. And I am for a strong defense, but the 
fact of the matter is hand in glove, you need to also have 
strong diplomacy.
    So I am also bothered by the lack of action by the State 
Department to address reports of retaliation against Department 
employees for their perceived political views, national origin, 
or sexual identity, and left unaddressed, these allegations 
have a chilling effect on recruitment and retention, and fuel a 
tense climate that makes it that much harder for our diplomats 
to accomplish their work.
    You led the State Department's work for us for 4 years. 
What is your assessment of these recruitment and retention 
declines, and what can be done to reverse these trends? And 
also, what do you think is the impact of unchecked retaliation 
against members of the Department's career work force and their 
ability to conduct diplomacy on behalf of the United States?
    Ms. Albright. I am very troubled by what I have seen, and I 
am grateful to Congress for having restored some of the money 
that was cut. You can not do diplomacy without diplomats, and I 
do think that--I am very saddened by what I hear and read about 
the State Department.
    When I left office, I made very clear how jealous I was of 
those that were able to stay and do diplomacy for a different 
administration. And I thought, they get to do foreign policy 
all the time and I have to leave. And the bottom line is what I 
found in them were people that are professionals that want to 
serve our country. They are not partisans. They are not people 
that need to be criticized for various things.
    I did something my children call eavesing, which is 
eavesdropping on a conversation, and I heard some people say, 
well, we have to get rid of those people in the State 
Department, they are not loyal Americans, at which point I had 
to admit that I had been eavesing and said I disagree totally. 
And I think that we cannot, in fact, punish the people at the 
State Department, and I am very troubled by the number of 
people that have left.
    I also am troubled by something else. As I said, I teach at 
the School of Foreign Service. It is not the foreign service. 
It is a school that really principally is trying to train young 
people to go into international relations. The number of 
students that have come to me and said, I am not sure I want to 
take the Foreign Service Exam, given what is going on; what 
should I do? And I say, actually, you are not going to be 
making policy at the beginning. You are going to be stamping 
visas. But if you do not get into the system, there is going to 
be a break in the pipeline.
    And so it is not just a matter of what is going on now but 
what will happen if we do not have trained diplomats. And so I 
am very troubled. I am grateful to all of you. I think that we 
need to encourage--it is a tool. It is the major tool in our 
toolbox, and it does take trained diplomats to carry out 
American policy. So I am very glad that you are focused on 
that.
    Chairman Engel. Thank you, Madam Secretary.
    Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    First, let me thank you, Madam Secretary, for your service 
to the country, but also your service recently on the Institute 
of Peace Task Force. The chairman and I were at a press 
conference yesterday with Senator Graham, Senator Coons, 
Governor Kean. As a former chairman of Homeland Security, I 
think we have done a good job protecting the homeland and being 
on the offense with our military, but the prevention side is 
where we need to really focus. And I think the recommendations 
of that task force should be very helpful to Congress.
    Shifting gears to Venezuela. There are so many hotspots to 
talk about, but when we talk about humanitarian crises erupting 
in the globe today, I cannot think of a worse one than 
Venezuela, where trucks are attempting to get into the country 
to provide humanitarian aid and Maduro's forces are lighting 
them on fire and killing people. I know the U.S. is seeking the 
U.N. Security Council vote on a resolution calling for 
Venezuela to allow this humanitarian aid and hold free and fair 
elections. I hope to work with the chairman on a resolution 
from the Congress, speaking on behalf of the American people, 
in support of what is happening down there against Maduro and 
for humanitarian assistance.
    But to the point of recognizing Interim President Guaido, 
this has come up quite a bit, 54 other nations directly 
recognize him as a legitimate Interim President. Would you 
support this as a resolution from Congress? And do you support 
his efforts toward a peaceful transition?
    Ms. Albright. I do think that the situation in Venezuela 
and the region is very dangerous and a horror show in so many 
ways in terms of what it has done to the people of Venezuela 
and the region, so there are various parts that I would 
support. I actually do think it is a good idea for us to 
recognize, but I also am very glad that there is a multilateral 
approach to it, a regional one, with the Lima Group, and then 
more and more supported by the Europeans, so that it is not 
just----
    Unfortunately, the U.S. does not always have a great 
reputation in terms of our policies in Latin America over 
decades. And so I think having a multilateral effort on this is 
very, very important, and I hope we align ourselves more with 
the multilateral approach.
    I also do think, and this has something to go back on on 
the task force in many ways. The countries around Venezuela are 
ones that need help. Colombia. Those of us that worked on a 
bipartisan effort on Plan Colombia understand how many issues 
are going on there. Then in the Northern Triangle and then 
people that are emigrants that are leaving Venezuela are 
putting a lot of pressure on those countries.
    I hope that we look at how to increase humanitarian 
assistance and development assistance to those countries 
because they are under a lot of threat. And so my approach to 
this would be multilateral, diplomatic. Sanctions, I think we 
might want to think about.
    What is concerning about a Security Council resolution, 
given what the Russians and Chinese are doing in support of 
Maduro, one has to be careful about what they might do in the 
Security Council.
    Mr. McCaul. That is a good point. I agree with you. The 
Lima Group. This is viewed as South America, not the United 
States trying to do this alone but, rather, a unified effort.
    North Korea. The President is meeting with Kim Jong-un. He 
met with him this morning. I want to get your--well, over the 
past prior administrations, three of them, we made concessions, 
but they are now to the point where they have developed an 
intercontinental ballistic missile we think possibly with a 
miniaturized nuclear warhead that could be delivered as far as 
the United States Continent.
    What advice would you give to the administration as to how 
to move forward with this?
    Ms. Albright. Well, first of all, it has been a very long-
term problem. I am very glad that we are following a diplomatic 
approach at this point. I think it is very important, and I was 
not exactly for fire and fury. I, until recently, was the 
highest level sitting official to have gone to P'yongyang. I 
went there in October 2000 and met with Kim Jong-un's father, 
Kim Jong-il. We were working on the issue of missile limits and 
a number of different things. And by the way, just a note, Kim 
Jong-il, the father, had said it would be fine if we left our 
forces in South Korea.
    And I think that, unfortunately, those talks were not 
carried on, and I think we have gone through any number of 
different talks and promises. And I do think that what is very 
important is to make sure that whatever steps are taken by the 
administration are done in a way that is worked out in a way 
where we are not giving away things without something in 
return.
    I was troubled by the Singapore summit, and I was asked 
whether it was a win-win or a Kim win. I think it was a Kim win 
because we gave up our exercises with South Korea and Japan, 
our allies, and did not get what we needed, which was some 
definition of denuclearization, some verification aspects, and 
that, I think, is the most important part. President Reagan 
said trust but verify, and so I do think that that part is 
important, and then some kind of a roadmap. This is going to 
take time. It is a dangerous situation.
    I think it is very difficult to have a discussion about it, 
as President Trump is sitting there now, in terms of how this 
is working, and I think one has to be careful not to interfere 
in that. I do think what I see as far as this summit is 
concerned, more diplomatic preparation with what Secretary 
Pompeo has been doing and what Steve Biegun has been trying to 
do. So I think that there needs to be reciprocity in the steps 
and simultaneity to them of one step or another and for us not 
to give away things before we know exactly what is coming from 
the other side.
    Mr. McCaul. And I agree. Do not make concessions without 
getting something in return; defining what denuclearization 
means, because it means something different to them than it 
does to us; and I think inspection of sites; and then, finally, 
a roadmap. And I think those are the three elements.
    Ms. Albright. I also do think that the fact that the North 
Koreans seem to be big transmitters of technology to other 
countries, which is why the sanctions are so important, and 
multilateral sanctions on that.
    Mr. McCaul. Thank you.
    Chairman Engel. Thank you.
    Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    Madam Secretary, it is delightful to see you and hear you 
as always. And I am reminded, in looking on my last flight over 
to Europe, I read your book, ``Fascism: A Warning,'' and it 
reminded me that words matter. And our allies listen to all of 
the words that are said, particularly our allies and our 
enemies, by the President of the United States of America.
    And I must admit that I am deeply concerned about what is 
taking place in that I show as an example, for example, while 
we were over at the Munich Security meeting, the President 
tweeted out, in regards, he said that European countries should 
take back and put on trial hundreds of ISIS fighters who have 
been captured in Syria. Quote, ``Time for others to step up and 
do the job that they are so capable of doing,'' the U.S. 
President tweeted, and that was last Saturday night. And he 
warned that ISIS is ready to fall, but more than 800 prisoners 
could be made their way to Europe, and he would just release 
them if they did something.
    Those are his words at a time over there with our allies. 
There is one person that said that they are American citizen 
that wanted to come back and stand trial, and he said that they 
are not going to let her back in. So contradictory in terms.
    We look at what is taking place in Venezuela, and it is 
bad. We see millions of people crossing over to Colombia and 
Brazil and Peru, and we compliment them, but people who are 
also suffering in Central America, trying to come to the United 
States, he wants to build a wall to prevent them from coming 
in. Contradictory in nature.
    He says he wants to have a peace agreement on 
denuclearization of North Korea with nothing that is concrete, 
but yet he pulls out of the JCPOA that was with multilateral 
individuals that could be verifiable and people on the ground 
on a daily basis. So he points on one end where there is 
nothing verifiable; on the other end, complete verifiable. He 
pulls out of a climate change agreement and then says--and has 
the language of America first against all others. That concerns 
me with reference to our allies especially.
    Do you think that the words of the President of the United 
States really matter? And how should we then combat that as 
Members of the Congress as you talked about it is time for the 
First Amendment here in the United States--in the Constitution?
    Ms. Albright. I am concerned about what is being said, and 
let me just say about my book. One of the best quotes in there 
is from Mussolini, or attributed to him, which is if you pluck 
a chicken one feather at a time, nobody notices. So there is a 
lot of feather plucking going on. By the way, it is hard to say 
those two words together too quickly.
    But, basically, the kind of points that you have made are 
part of the international feather plucking where people do 
doubt what we are doing. And I think so much of international 
policy does depend on the relationship and what you say. People 
take very seriously what is said by anybody, but certainly by 
the President of the United States.
    And the issues in terms of--I have to say, for me, I happen 
to have supported the JCPOA, because in many ways, it dealt 
with the most serious aspect of Iran's behavior, which is 
troubling across the board, but their capability in terms of 
developing nuclear weapons. I find passing strange that the 
President has put himself kind of into a box, because if that 
kind of an agreement could be worked out on North Korea, not 
dealing with everything that the North Koreans are doing wrong, 
it is pretty much of a good blueprint on that. And then also, 
by pulling out of an agreement, it has undermined our 
relationship with the other members of the P5+1 in terms of can 
we be trusted on agreements? And it does go to the point of if 
we want to do something with allies and friends in Venezuela, 
can you trust America's word? Or on the North Korea, it is 
going to take more than us to deal with some of the issues on 
sanctions.
    And so it is undercutting our own policy, and therefore, I 
think that it is very important to call it out. And part of the 
problem truly is that I do believe in a bipartisan foreign 
policy, and I will tell you what I find personally hard. It is 
not appropriate for a former diplomat to be abroad and 
criticize one's own country, but also, most of us have to 
continue to have some credibility by telling it like it is. And 
I think that when all of you were, many of you in Munich, I 
think people need to know what the role of Congress is and how 
many Americans feel, that we cannot go into this by ourselves 
and keep plucking the feathers.
    Chairman Engel. Thank you.
    Mr. Chabot.
    Mr. Chabot. Thank you very much, Mr. Chairman.
    I want to thank Mr. Smith for allowing me to switch places. 
I am the ranking member of the Small Business Committee, and we 
have a hearing at 11, so he has allowed me to do that, and I 
greatly appreciate that.
    I also want to thank you, Madam Secretary. You may not 
remember this, but when you were Secretary of State, I had a 
constituent, Tom Sylvester. He had a daughter named Carina, and 
it was an international child abduction case. She had been 
taken to Austria, and he had been trying to get her back. He 
went all the way to the Austrian Supreme Court, prevailed 
there. Went to The Hague, under the Hague Convention, prevailed 
there, and could not get his daughter back, and you were kind 
enough to be involved. You met with he and I down at Foggy 
Bottom, and so thank you.
    Ms. Albright. Thank you.
    Mr. Chabot. International child abduction cases, they rip 
your heart out. And if you are involved in one, whether you are 
the person who has been adversely impacted or anybody involved, 
it is just a very sad thing. It does not get enough attention, 
so thank you for caring enough. I really appreciate that.
    Second, you mentioned you are a professor, I believe, at 
Georgetown, and you said, if you were grading the President on 
international affairs matters, you said you would give him an 
incomplete. And just in fairness to the President, this is--you 
know, he has been in office 2 years, so it would be half of his 
first term, and if he has a second term, it would be a quarter 
of his term. So I think he has made progress in different 
areas, but it is unknown where we end up with North Korea or a 
whole range of things.
    And I would just--you know, I think we should recognize 
that, for example, Ronald Reagan, who many criticized for being 
a warmonger early in his Presidency, it was later on in his 
second Presidency that he and Gorbachev essentially changed the 
course of history, and the Pope and others as well, so it did 
not happen right away. It took time for that to happen and the 
cold war to come down--or the Berlin Wall to come down and a 
whole range that was under, obviously, the next administration, 
but Reagan is the one who set it up.
    And even Bill Clinton, you know, he literally as he was 
heading out the door, was trying to get an agreement with the 
Palestinians and the Israelis and ultimately failed in that, 
but he sure tried hard. And that was in the eighth year.
    So I think just to be fair to the President, you know, he 
has been there a relatively short period of time, and he is 
trying in a whole lot of areas, and he has had other things on 
his mind. I am sure there is another committee today who is 
looking at things, and that has got to be real challenging for 
the Commander in Chief.
    But let me shift to another area, and that is Taiwan. I 
happen to be one of the co-founders of the congressional Taiwan 
Caucus. And President Xi recently said that he would not 
renounce the use of force in reunification, and I know Taiwan 
and the relationship, they are an ally of the United States. 
They are a democracy. The PRC, China, is our rival, our 
adversary. They are a potential enemy if they do things, they 
continue to do things like build islands and then militarize 
them.
    So in that very important relationship, which I also think 
does not get nearly enough attention being the hotspot that it 
could potentially be, would you comment on Taiwan and the 
importance of the U.S. maintaining that strong relationship and 
where you see the PRC ultimately ending up on this?
    Thank you.
    Ms. Albright. I was in the White House when normalization 
with China happened. I was a staff member of the National 
Security Council actually doing congressional relations. And so 
I went to Taiwan--I mean to China with a codel before 
normalization with Senator Muskie, and it was exactly 40 years 
ago. And one of the things that I thought was very important as 
we got normalization was the Taiwan Relations Act, and it is 
something that has guided our relationship and the importance 
of maintaining it.
    Whenever I am asked about this now, I really do think that 
that is a very important piece of legislation in the 
relationships that we have. And I was very troubled a couple of 
days ago to read about some of the threats, again, that Beijing 
is making against Taiwan and missiles and a variety of things, 
and I do think that we need to stand up for what is in the 
Taiwan Relations Act and make very clear that that relationship 
is an important one. We would like to see some kind of a 
peaceful way of dealing with our China policy, but I do think 
it is not--that we cannot forget what our obligations are.
    And it is interesting that it has been 40 years and kind of 
think about the things we learned about China's behavior. I do 
think that the whole issue of our relationship with China at 
this point needs to be looked at. I am very concerned. I talked 
in my Statement about where we are at the current time, and I 
hate to see the United States withdraw from the international 
scene because the Chinese are filling the vacuum. And to have 
Xi Jinping all of a sudden be the proponent of climate change 
and multilateralism kind of does not make much sense to me.
    We are the leaders of the world. I believe in American 
leadership, and I am very concerned about our absence in places 
because, as I said, the Chinese are getting fat as the belt and 
road keeps getting larger, their influence in Venezuela, any 
number of things. I think we need to figure out what the right 
relationship is with the Chinese on this. They are a threat.
    Mr. Chabot. Thank you very much.
    Chairman Engel. Thank you.
    Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman.
    Good morning, and thank you for being here today. One of 
the things that really worries me about this whole situation in 
Venezuela is the destabilizing factor that it is going to have 
throughout the region. I mean, these countries cannot absorb 
the amount of people that are coming over. Quite frankly, 
Colombia has done a great humanitarian job in trying to help 
these people, but it seems that now--it seems that, for 
example, Peru has 700,000 Venezuelans. That is a great pressure 
on their economy.
    And for the first time since I can remember, I am happy to 
see that the countries of the region are taking on Venezuela. I 
have never seen so many countries in the region get together to 
try to bring us some sort of a resolution, but then I worry 
about the direction that some of these countries are going. I 
worry about the direction that Brazil is going. I worry about 
the direction that Guatemala is going. They just threw out 
CICIG, an anticorruption commission that was there, they just 
expelled them, got rid of it, disbanded it. So it seems like 
this is always the land of extremes. You have these dictators. 
They hide under the socialist label, and then you have the 
right wing dictators.
    So how do we, with our history in this region, talk to 
these countries and not so much take the lead but work with 
them and let them take the lead?
    Ms. Albright. I think it is very important for us. The Lima 
Group, really, I think is a very good grouping. I think we need 
to look at the functions of the OAS a little bit more in terms 
of how they could be helpful on this. I also do think that we 
need to be supportive of the neighboring countries. And also, I 
have to say, to be more generous in terms of the immigrants 
from Venezuela by extending the TPS for Venezuelan refugees.
    I think that we cannot all of a sudden be telling other 
countries to take people and we are cutting our numbers in so 
many different ways. And so if we want to be a good partner in 
the Western Hemisphere, then I think we need to work with 
partners, the OAS system, and then with others.
    And I think the hard part about this is we would like this 
to be solved immediately. It is going to take a while. And I do 
think the following thing: Americans are the most generous 
people in the world with the shortest attention span. And we 
need to remember that this is going to take a while, that we 
need to put in the efforts with our diplomats, with our 
economic tools, and with the partners in a multilateral 
setting. Also, Americans do not like the word multilateralism. 
It has too many syllables and it ends in ism, but all it is is 
partnerships.
    Mr. Sires. Well, I like the partnership idea because of the 
history that we have had in this region.
    Ms. Albright. Yes.
    Mr. Sires. We have to work with these groups. And now that 
we have all these countries banding together, we could be a 
partner with them, but I worry that we are going to try to take 
the lead, and some of these countries are going to start fading 
away.
    Ms. Albright. Yes.
    Mr. Sires. I worry about that.
    Ms. Albright. I mean, we have to be an active partner. By 
the way, the most revolutionary thing I did as Secretary of 
State was to move Canada into the Western Hemisphere. According 
to the State Department, it was in Europe, and so we wanted to 
have more democracies in the hemisphere. They actually are in 
the hemisphere, but having the Canadians as a part of this 
multilateral approach is also important.
    Mr. Sires. Can you talk a little bit about this fake 
constitution that was voted in Cuba?
    Ms. Albright. Well, I have--it is very interesting because 
kind of the things that had been being done before was how to 
live up to a constitution, and meanwhile, the Cubans have gone 
another direction, so I am concerned about that.
    Mr. Sires. All right. Thank you.
    Chairman Engel. Thank you.
    Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman.
    And, Madam Secretary, welcome again----
    Ms. Albright. Yes.
    Mr. Smith [continuing]. To the committee, and thank you for 
your service. Time permitting, there is only 5 minutes. Just 
two basic questions, if I would--if you could answer.
    The first is with regards to China. When President Bill 
Clinton delinked human rights performance and MFN in May 1994, 
I and others were shocked. As a matter of fact, Nancy Pelosi 
and I joined together and worked very hard to try to get that 
reversed. It sent a signal that profits trumped human rights. 
When the President famously linked it a year before, we 
applauded him to the nth. I mean, it was just such a good move, 
and the people of China would have benefited had we stuck to 
our guns.
    Today, as you know, Xi Jinping on all areas of human rights 
abuse is in a race to the bottom with P'yongyang in every 
single area you look at, especially in the area of religious 
freedom. The ruling Chinese Communist Party has undertaken the 
most comprehensive attempt to manipulate and control or destroy 
religious communities. And under this new policy called 
centralization, where every single believer, every single 
institution must comport with communist ideology or else; you 
know, Gulag, laogai, torture. We look at what they are doing to 
the Muslims, the weaker Muslims in the autonomous region, a 
million people in Gulags.
    What would be your strong statement to the Chinese 
Government right now on human rights in general, but especially 
what they are doing on religious freedom? They are rewriting 
the Bible. They are tearing down churches. What they do against 
the Dalai Lama, and of course, his people in Tibet, the 
Buddhists, is just absolutely appalling.
    Mr. Smith. Second, if I could ask you how you would rate, 
you give incomplete scores generally to President Trump. But, 
as you know, I was the prime author of the Trafficking Victim's 
Protection Act of 2000, and we are always glad that the 
President signed it, but getting there was extremely hard.
    Secretary Howard Koh sat just where you sat and was against 
the sanctions in the regime, wanted to have--rather than having 
the TIP report that comes out every year, the gold standard 
that does a narrative on every country on prevention, 
prosecution, and protection, the three Ps, he said fold it into 
the Country Report on Human Rights Practices, that the burdens 
of this reporting and this bureaucracy of the TIP office was 
just superfluous and we did not need it. He was also against 
the sanctions, which I think--just like in our own civil rights 
law, Title IX, why did Title IX work so well? Because it was a 
sanctions regime against college and universities that would 
not have women's sports, and that is all of our civil rights 
laws, in my opinion, work because of a sanctions regime. We 
have robust sanctions, and he testified against that as well.
    But, again, it was signed. How would you rate the President 
on this? I have read this report cover to cover. Secretary 
Pompeo, again, put China on the worst list, Tier 3, where they 
belong, because they have horrible, horrible abuses on both the 
labor side and the sex trafficking side in that country. So, if 
you could, on those two issues.
    Ms. Albright. Well, first of all, let me applaud you for 
everything that you have done on human rights and on 
immigration issues, I have to say. I do think the following 
thing: There was not a time that I had a meeting with the 
Chinese, either at the U.N. or later, that I did not raise the 
issue of human rights. It has to be raised all the time. The 
question is, under what circumstances, when do you do it 
publicly? President Clinton and I did raise it publicly.
    I am concerned about the fact, at the moment, as far as I 
can tell, the issue has not come up between President Trump and 
Xi Jinping. And I think it is very important in terms of the 
values that we have to always raise it. I think the hard part 
always is, is how in diplomacy are you able to raise those 
issues and then still continue to have a relationship. And to 
look at the larger relationship and when do you use sanctions 
and when do you not.
    Your point about the MFN, part of it was that, every year, 
we had to pull up the plan to see if it was growing to kind of 
see what our relationship was going to be with China, and we 
were for bringing them into the WTO in order to get some kind 
of regularity in it. The Chinese have to be pushed on all of 
this constantly.
    But I am concerned generally about our relationship with 
them. They are a threat. There are times we have to work with 
them, we are going to count on them to be helpful on North 
Korea. And the question--the art of diplomacy is trying to 
figure out what you do when and how, but there should never be 
a meeting of any kind with the Chinese where human rights are 
not raised in it.
    Mr. Smith. And how would you rate the President on 
trafficking?
    Ms. Albright. Well, on human rights in China?
    Mr. Smith. No, on trafficking the----
    Ms. Albright. On trafficking, I have not seen a lot of 
activity on that, frankly. Incomplete. By the way, my grading, 
since I do grade, an incomplete is actually a friendly grade, 
because one can give a lower grade. And so it gives the 
opportunity, I think, for a change in behavior. I am about to 
meet with my students, I have a couple that I think are 
incomplete, and I am going to say, we are in the middle of the 
semester, do something.
    Mr. Smith. But have you been able to read this?
    Ms. Albright. I have not, I am sorry.
    Mr. Smith. I mean, in every country--we are promoting this 
as a country----
    Ms. Albright. I would very much--I will make a point of 
reading it.
    Mr. Sherman [presiding]. The gentleman's time has expired.
    Ms. Albright. Thank you.
    Mr. Sherman. I will skip myself and recognize the 
gentlelady from California.
    Ms. Bass. Thank you, Mr. Chair. I really appreciate you 
allowing me to speak.
    Madam Secretary, it is an honor to hear you, and I just 
really want to acknowledge our appreciation, our country's 
appreciation, for your long history and your contributions.
    I wanted to ask you where you think U.S.-African relations 
are. I chair the Subcommittee on Africa and deal with African 
diplomats all the time. I often make a distinction between 
where Congress is, which Africa is a very bipartisan issue, but 
I do not have much to say when it comes to where the 
administration is. I cannot really offer an explanation, 
especially when our President is on--has been known to refer to 
African countries in such a derogatory way or make up the names 
of countries that do not exist.
    I also wanted to ask you about how the rest of the world 
was viewing how we are handling our own border. And then, 
finally, if you could comment about your book in terms of your 
concerns about our country. You raised the specter of fascism, 
and you make the point that, currently, authoritarian regimes 
actually started off as being elected. So if you would not mind 
expanding on those.
    Ms. Albright. I am very concerned about the lack of 
attention to Africa in many different ways. It is a continent 
that, it is interesting, people say Africa, when there are an 
awful lot of differences among the country.
    Ms. Bass. Like it is a country.
    Ms. Albright. And really, there are some really good news 
stories and some that are pretty tough. You have been very 
kind. You have gone on some codels with the National Democratic 
Institute, and I think that there really is an important aspect 
of trying to understand what the different evolutions are in 
Africa. I just had an interesting meeting, actually it was in 
Morocco, but there was a discussion about the fact that we 
should stop talking about northern Africa and----
    Ms. Bass. Thank you.
    Ms. Albright [continuing]. The Sahel, and that there 
really--it is an artificial line that we are drawing.
    Ms. Bass. Right.
    Ms. Albright. And I think that we need to see where we can 
be more helpful. For instance, I am very pleased that during 
the Clinton Administration, that we did the Africa Growth and 
Opportunity Act, and that that is something that needs to be 
expanded on to see the opportunities. And so I think there is a 
lot of work to be done. It helps if you know where the 
countries are. But there are very many aspects of it, and your 
help on it has been very important.
    I also do think, I am not here representing--on behalf of 
the National Democratic Institute, but we do in fact have a lot 
of programs there. I think one has to look at whatever has just 
happened in the Nigerian election; Nigeria is a key country. So 
to pay more attention to it.
    I am troubled--I go back, and it goes back to kind of the 
way I see the world at this point. We are in a very, very 
different phase, for all the reasons that I mentioned. And I am 
troubled by the fact that divisions in our societies, whether 
it is in the United States or other places, are being 
exacerbated by those who identify themselves with one group at 
the expense of another, and that there is always kind of the 
other, are the immigrants. One of the things that we know is 
when you begin to develop scapegoats, and that is part of the 
thing of blaming the immigrants in whatever country. The 
Europeans have been doing it.
    I am stunned. I am an immigrant, and so, when now our--we 
have fewer numbers of people coming in than ever before. I 
think it is just stunning. So I do think that I am worried 
about the divisions in our society that then become 
exacerbated, where instead of trying to find common answers, we 
are kind of pushing us against the other. The thing that, 
frankly, blew my mind as I was doing research on this book, is 
that all the countries, beginning actually with Mussolini, they 
were--Mussolini and Hitler came into power constitutionally.
    The countries that we are worried about now, whether it is 
Turkey or Hungary or Poland or Venezuela, the Philippines, 
those people were all elected, and then take advantage of it 
and then exacerbate. And so I think that is why we need to 
begin to look. I think the social contract is broken. I think 
there are very serious issues going on everywhere due some to 
technology and globalization.
    Ms. Bass. Thank you.
    Mr. Chair, let me just say that I really have appreciated 
my experiences with NDI. I went to Zimbabwe last year to be an 
election monitor, and Kenya the year before that. It does put 
us in a little difficult situation because people do ask us 
about our elections.
    Ms. Albright. Yes. By the way, when I was--we were doing 
some work in Egypt, and I was telling people--I was meeting 
with some Egyptian parliamentarians, and I said, democracy 
really depends on compromise and coalition building. And they 
said, you mean like you guys?
    Mr. Sherman. Thank you. Perhaps we need a parliamentary 
system of government in the United States, but that is beyond 
the scope of our hearing.
    I recognize the gentleman from South Carolina.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, Madam Secretary, I was really grateful to be with you 
at Munich last week. I was very impressed, and again, your 
statements today about bipartisanship and foreign affairs. And 
then I particularly want to congratulate you on NDI. I have 
worked with IRI, International Republican Institute, and just 
as Congresswoman Bass, I have had the opportunity to be an 
election observer and how meaningful these programs are.
    And I also was very pleased last week to be with you for 
the rollout of the declaration. And I had hoped that it would 
get more attention. If you could tell everyone what the 
declaration is and what the significance of it is and how we 
can best promote the declaration.
    Ms. Albright. OK. First of all, let me just say, I love 
working with IRI. I became very good friends with Senator 
McCain, and Senator Sullivan and I are really kind of working 
through things now. So thank you very much for your support.
    I think the declaration of principles is very interesting 
because part of it was sponsored by the Atlantic Council, and I 
have to say that I was kind of skeptical at the beginning, but 
it is kind of going back to basics in terms of the kinds of 
things that bring our societies together, looking at what the 
role of the people are, what the responsibilities are. There 
are a number of statements to do with it that in a way are not 
just renewing our vows from 70 years ago, but also trying to 
outline what needs to be done.
    One of the things that we are going to be doing is reaching 
out and talking to people all over the United States, and a lot 
of the--it was international. So in terms of talking about what 
the basic principles are and bringing the younger generation 
into it. I have said that institutions and people at age 70 
need a little refurbishing. So this is basically a way to go 
back and see what is germane now in terms of the role of the 
private sector, how countries work together, how people work 
together, the role of governments and individuals. I would be 
very happy to distribute those.
    Mr. Wilson. And it was impressive to me, the public, 
private, and also the different international organizations 
working together for the declaration.
    Ms. Albright. Yes.
    Mr. Wilson. I was really grateful to have led a delegation 
on May 14 for the opening and the relocation of the U.S. 
Embassy to Jerusalem. And I felt like it was just so uplifting 
to be there. We have an extraordinary Ambassador with 
Ambassador David Friedman. With President Trump, it was 
promises made, promises kept.
    What is your view about the opening of the embassy in 
Jerusalem?
    Ms. Albright. Well, let me say, I have been a supporter of 
Israel forever, and I also spent a lot of time working on 
Israeli-Palestinian issues. The status of our embassy in 
Jerusalem is a final status issue, and I happen to think it was 
a mistake to do it at this point. That it has made things more 
complicated. And then also, I have been troubled by the fact 
that funding has been stopped to a lot of Palestinian 
groupings, which makes it very difficult. The Palestinians do 
not--now we have a very serious problem in terms--I am looking 
forward to see whatever peace plan is coming out of this, and I 
do believe in a two-State solution.
    So I do think that every country has a right to recognize 
where its capital is, but this was a final status issue and I 
think should remain--should have remained in that category.
    Mr. Wilson. Well, I just--we have seen the consequence. 
There were warnings that there would be mass violence that did 
not occur. We were warned of so many different consequences, 
and I just appreciate President Trump having the courage to 
proceed. Also, I appreciate in 2000 your meeting with Kim Jong-
il, and that we can have progress in diplomacy with North 
Korea.
    Over the past 2 years, North Korea has not launched a 
missile in 457 days, it had not had a nuclear test in 543 days. 
There have not been threats against the people of Guam by way 
of missile testing. The President's initiatives have secured 
the release of four Americans detained in North Korea. DPRK has 
made a promise to destroy the missile engine test site in 
Kusong. And the remains of 55 American remains of 
servicemembers have been released.
    Over and over again, there has been progress, and of 
course, the real concern, and you have identified it, and this 
can be part of what is going on in Hanoi today, and that is the 
correct definition of denuclearization. Thank you very much.
    Ms. Albright. Well, I do think that it is important to be 
carrying on these diplomatic steps. I appreciate the steps that 
you have mentioned that have been taken, but we are a long way 
from where we need to be, and I think that we need to have 
diplomats working on this things prepared. And I hope that the 
talks today are successful.
    Mr. Wilson. And thank you for your efforts in 2000.
    Ms. Albright. Thank you.
    Mr. Sherman. Thank you. I should point out that during the 
Clinton Administration, there was not 1 year but rather a 
several-year period of no testing, and that well over 100 
remains of our soldiers were returned, all without giving Kim 
or his father the status of a face-to-face meeting with the 
President of the United States.
    Madam Secretary, at our earlier meeting, I heard you talk 
about the importance of Article I of the Constitution. The most 
important part of that article is the right to declare war that 
is vested in the Congress. Now, the War Powers Act, also known 
as the War Powers Resolution, is the preeminent statute 
designed to define the role of Congress when it comes to the 
most important aspect of the use of foreign policy, and that 
is, the deployment of military force.
    But administration after administration has honored it, at 
most, in the breach, and sometimes deliberately violated it. 
When they have presented reports that are called for by the 
Act, they are always submitted consistent with the Act, making 
a point that the administration does not believe the Act is a 
statute or a law that they have to follow. Whereas, other 
reports are submitted pursuant to an act.
    You are now no longer in the executive branch, you can look 
back at it as a professor and scholar. Do you believe that the 
War Powers Resolution is binding on the President, or in 
contrast, do you believe that a President can simply ignore it 
and deploy troops on long-term operations without an 
authorization to use military force?
    Ms. Albright. Just as you were starting out, I made a note 
to myself, consistent with. And I do remember every time I 
testify to be absolutely clear to say consistent with, not 
pursuant to. So I literally just wrote it down before you said 
it.
    I do think that the Constitution is definitely an 
invitation to struggle on this particular issue. And I have 
gone through--I cannot--I do not know how much my students 
appreciate this, but the whole history of how these things have 
gone on and why the Gulf of Tonkin Resolution created this 
issue and how it has been carried out.
    Mr. Sherman. Yes, you can go back to Jefferson's deployment 
of the Marines on the shores of Tripoli.
    Ms. Albright. Right. So I think the question is the 
following. And I, frankly, do think it is strange to be 
operating by an AUFM that came out, you know, like a long time, 
you know, as long as I have been out of office. But basically 
this is my question, and I know this is something that you have 
been working on is, how does one decide whether one gives 
ultimate authority to the President or limits it in such a way 
that----
    Mr. Sherman. I want to move on to other questions. But is 
the President the emperor who can deploy our troops anywhere in 
the world without authorization from Congress? Is that what our 
Constitution----
    Ms. Albright. The Constitution does not say that. And so I 
do think the consultation and work together on this----
    Mr. Sherman. Well, consultation is what the czar did with 
the Duma back in 1905. Does Congress have power or are we just 
an advisory----
    Ms. Albright. I think Congress has power, I do.
    Mr. Sherman. OK. I want to move on. You are right about the 
envoys--about all the open positions in the executive branch. 
Perhaps the most glaring vacancy right now is that we do not 
have a coordinator special envoy for human rights in North 
Korea. But I do want to focus on India-Pakistan.
    This is the only place in the world where two nuclear 
powers have gone to war with each other, or at least kinetic 
military battle, and that has recently resumed or been 
initiated. What can the U.S. do to reduce tensions in South 
Asia? And what do we do about the fact that Pakistan seems to 
at least tolerate, if not support, certain terrorist groups 
while, of course, opposing others?
    Ms. Albright. You are not going to believe my answer to 
this, because my father was a Czechoslovak diplomat who, in 
1948, represented Czechoslovakia on a first commission to deal 
with India and Pakistan over Kashmir. And he was the one that 
arranged the cease-fire for the end of the first fighting. And 
so I am old, he is dead, and the issue is worse than ever.
    Also, in my class, we do a role play. And even before the 
most recent thing, the scenario is India and Pakistan with 
nuclear issues. So I will let you know what my class decides on 
this, but I do think----
    Mr. Sherman. We all have brilliant students in our 
respective districts. Do we have any guidance from the 
professor?
    Ms. Albright. I do think that we do need to figure out some 
way to make sure that we do not have a nuclear confrontation. I 
think the U.S. needs to get involved in this. And I think that 
it is--it would be a good idea, actually, to have some kind of 
an envoy trying to deal with this. We cannot allow this to get 
out of control.
    And what happened under President Clinton was there was 
various things that went on, President Clinton met with the 
Pakistanis on cargo, and were trying to deal with it. We cannot 
just avoid this.
    Mr. Sherman. My time has expired.
    I recognize the gentleman from Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman.
    Secretary Albright, it is a privilege to have you here. 
Regardless of any political differences anybody has here in the 
room, I think that your personal story is an inspiration to 
people, certainly in America and around the world, and we 
commend you for your continued engagement in world affairs.
    With the rise of anti-Semitism at home and abroad, and you 
see it on campuses--and unfortunately, I think we have really 
witnessed it right here among some of our own colleagues in the 
halls of Congress.--what do you think Congress can do to 
highlight this resurgent evil? And what solutions or actions 
should we consider that we have not already taken?
    Ms. Albright. Well, I do think that it is something that we 
cannot kind of just not talk about and deal with, and I think 
people need to discuss what the results of it are and try to 
figure out how one deals with--and it is a hard issue in terms 
of freedom of speech, and also the boycott. I mean, I think 
that there are questions about how to deal with that and still 
allow freedom of speech.
    I just think that we all have to speak out about the 
results of it. And I would be interested to know what kind of 
actions you all are recommending on it. Because some of it 
makes it hard, it is not something that one can legislate as 
much as one needs to keep talking about that we cannot do, what 
I said earlier, which is to identify with one group at the 
expense of another and make them the scapegoats. That is what 
happened.
    Mr. Perry. I think we need to, among other things, be 
careful about the parsing, which seems to be happening, where 
you can say that you are not for the Government of Israel, but 
you are for the Jewish people. The Jewish people form the 
government of Israel. The State of Israel is formed by the 
Jewish people. And if you are maligning the government and the 
State of Israel at the same time, they are congruent, they are 
one and the same, they are the Jewish people. And I think that 
is the biggest thing we can do.
    I want to move on to a little bit, looking at some of your 
statements that you read to us here this morning, particularly 
regarding the North Korean dictator, Kim Jong-un, and the scant 
dividends to date based on the President's actions. And I agree 
wholeheartedly with you that talking is much preferred to 
fighting. Fighting is the absolute last resort that we should 
seek. But at the same time, I think we need to give this 
administration space.
    I do not like to see the President of the United States 
with a dictator anywhere. I think it does provide them some 
status that they would not normally have, but in the past, 
other Presidents have done it, and there has been little hue 
and cry from the other side that seems to revile this one. I am 
not looking through the world with rose-colored glasses. Kim 
Jong-un is a murderous dictator, but we have a circumstance 
that has been created because of the failures of previous 
administrations where we have a dictator with nuclear weapons. 
And you would know of anybody how complicated these issues are, 
and especially in that culture where a personal relationship, a 
personal relationship makes the difference in the negotiation 
as opposed to as much of the eaches.
    And while we say that this President has not done enough 
from the first meeting, it was the first meeting, the beginning 
of the dialog. And I will remind everybody that in the past, 
under an administration that you served in, we offered security 
guarantees, fuel, food shipments, and help on building 
reactors. And, you know, North Korea, as you know, after they 
said that was the last missile test, lied directly to you and 
continued to test missiles and build nuclear enrichment 
facilities in secret.
    So I just want to make the record clear here. And also, 
regarding comments on Syria, we appear to be pursuing several 
policies simultaneously, confusing allies and delighting our 
adversaries. I do not think--you know that is a very difficult 
situation, and this President has been put in an awful position 
of cleaning up a circumstance where our policy had kept Russia 
out of the Middle East for over 60 years, and the last 
administration gave them full entree and walked away, and now 
this President is trying to pick up the pieces on a horrific 
situation of a civil war which is supported by dictators in 
China and folks in Iran.
    And, finally, I am very concerned about comments where we 
would say that America--there is an impression that our leaders 
share a disdain for democracy. And with the little time I have, 
this President has supported democracies in Venezuela, put 
pressure on China, pressure on Russia, pressure on Iran, 
supported the only democracy in the Middle East, Israel, tried 
to maintain a relationship with Turkey, bringing back Pastor 
Brunson, and supported the Ukrainian defense against Russia. 
This President is a supporter of democracy, and I reject 
wholeheartedly--that is an inflammatory comment that is very 
dangerous, I think, to suppose or to imply that the President 
of the United States does not support democracy anywhere in the 
world, including the United States. But I appreciate your 
input.
    Mr. Sherman. Thank you.
    Mr. Cicilline. May I ask the witness be permitted to 
respond to what I think was a question?
    Mr. Sherman. I will recognize her for a short time, yes.
    Ms. Albright. Let me say I am troubled by the relationships 
with some very authoritarian leaders. I think that a lot has 
been done to raise Kim Jong-un's status. I agree with some of 
the positive steps that have happened, but I would also say 
that when the Clinton Administration left office, there were no 
long-range missiles, there was no more fissile material, and no 
nuclear weapons. And I think that it is very hard to deal with 
North Korea, because it is the trust but verify. And I do not 
know how many times they say they have destroyed Yongbyon. I 
think that we need to figure out what is really going on. And 
kind of having a love affair and some of the terminology is 
kind of difficult for people to understand.
    I do think----
    Mr. Perry. Difficult for all of us to stomach, but once 
again, it is better than fighting. And I would say that----
    Ms. Albright. I definitely agree.
    Mr. Perry. I would say at the end of the last 
administration, most Americans saw the United States at the 
brink of war with North Korea, and a great concession by North 
Korea at this point is no testing, and we are not at the brink 
of war. While I find it--some of the rhetoric distasteful, that 
is----
    Mr. Sherman. Thank you.
    Mr. Cicilline. Could the witness be permitted to finish her 
answer? She was just interrupted. It is her time.
    Mr. Sherman. It is actually the extended time of the 
gentleman. You will have--I am about to yield to you.
    I do want to just comment on one thing the gentleman said, 
and that is, I have never met an Israeli who did not malign the 
Government of Israel. It is a national sport.
    And with that, I am going to yield 5 minutes to the 
gentleman from Rhode Island, that I am sure he will want to 
build on----
    Mr. Cicilline. Thank you, Madam Secretary, for being here 
today and for your continued leadership and extraordinary 
service to our country. We could spend many hours, even days, 
discussing all of the shortcomings of the Trump 
administration's foreign policy, but since I only have 5 
minutes, I would like to focus in particular on values, namely, 
democracy and human rights.
    It is alarming how this administration seems to conduct 
foreign policy in a values-free vacuum. President Trump calls 
gross human rights abusers our allies, and treats our allies, 
including our closest NATO allies, like adversaries. As you 
said in your testimony, if we are not friends with our friends, 
to whom will we turn for help?
    The administration's reckless approach and carelessness in 
damaging our alliances, in my view, is making America less 
safe. Congress, and in particular this committee, has a key 
oversight role to hold this administration to account and also 
to send a message to our allies about what America stands for.
    And in particular, I would like your thoughts on what is 
happening in eastern Europe, in Poland and Hungary, where it 
seems democracy and rule of law are under increased threat. In 
your book, you refer to the erosion of democratic values and 
attacks on democratic institutions in Hungary. Unfortunately, 
as you know, Hungary is not an isolated case. We are also 
seeing warning signs of democratic backsliding in Poland.
    So I would be anxious to hear your assessment of what is 
happening in central Europe and eastern Europe, what is the 
state of democracy in this region, and particularly, what 
influence the United States has and how we should be using it, 
and what we can do more to support democracy in civil society 
in this region, in particular.
    Ms. Albright. I am very concerned about what is happening 
in eastern Europe. And it is interesting, and I have gone over 
in my mind, frankly, what we might have done wrong in terms of 
our euphoria after the end of the cold war. Thinking that many 
of those countries were ripe for democracy, and democracy, as 
we know, is much harder than we think.
    And so--and believe it or not, Viktor Orban was everybody's 
favorite dissident. He came to the United States--and by the 
way, George Soros paid for his education in England--and I 
think he is an example of exacerbating some of the issues that 
the Hungarians had. I did a survey over all of Europe at the 
end of 1991, and I cannot remember all the statistics and the 
questions, but one I remember is: Do you believe a piece of 
your country is in the neighboring country? Eighty percent of 
Hungarians thought so.
    And so Viktor Orban, who is a demagogue in many things, 
having invented a term called illiberal democracy, which is an 
oxymoron, has taken advantage of that anger in order to get 
support for policies that are completely undemocratic. And I 
think that that is a concept that makes it very difficult.
    Poland, I also, as kind of the birthplace of a lot of 
democratic action, I think again there is--I find 
hypernationalism a very dangerous aspect as far as democracy is 
concerned. And I do hope that what we try to do is to go and 
explain without being domineering. I am going to Poland next 
week. I am giving a speech in honor of Zbigniew Brzezinski, who 
was my professor and my boss. Then I am going to the Czech 
Republic, and the Czechs treat me as some combination of a 
queen and an irritating older sister. I am going to give an 
irritating older sister speech since it is the anniversary of 
bringing them all into NATO. That NATO is not just a military 
alliance, it is a political alliance, and democratic values are 
a very important part of it. And I think we need to make it 
clear.
    And what I am worried about, our increasing separations 
between eastern Europe and western Europe.
    Mr. Cicilline. Thank you. And I have just probably time for 
one more question. One of my criticisms of the Trump 
administration is that they seem to have little time for what 
have been real cornerstones of American foreign policy that you 
have written a lot about, democracy and human rights. And I 
wonder if you would just tell us a little bit about what role 
you think those values of democracy and rights play in our 
foreign policy. What effect will this administration's 
disregard for these values have on our standing and leadership 
in the world? And, in particular, the administration has failed 
to speak out in support of LGBT rights or to condemn atrocities 
committed against the LGBT community in Chechnya, is one 
example. What is the impact--do governments, when they fail to 
hear from the United States, behave in a different way?
    Ms. Albright. Well, I think that is a big impact. And one 
of the things that bothers me is, for instance, in Poland, 
there is no respect for the judiciary. There are those--I am 
concerned about what has happened in terms of this 
administration's respect for our judiciary. About the role of 
the press. The rule of law. A variety of things that we hold 
are essential to democracy, and literally the extent to which 
some of them can point to what is going on here, saying, well, 
if you guys do it, why cannot we.
    So I believe that we do have a role to play as leaders, and 
I do think that we need to be very clear about what we believe 
in in terms of the rights of various groups and what our value 
system is, and we have been kind of burying that.
    Mr. Cicilline. Thank you, Madam Secretary.
    I yield back, Mr. Chairman.
    Mr. Sherman. The gentleman from Kansas is recognized.
    Mr. Watkins. Thank you, Mr. Chairman.
    Thank you, Madam Secretary, for being here. I represent 
Kansas' Second District, eastern Kansas, think farmers, 
ranchers, producers, and what can we do as diplomats and 
Congress Members to enhance access between our growers and 
international buyers?
    Ms. Albright. You know, I think this has been a very 
important part of American foreign policy for a long time with 
PL-480 that really started the farm programs. And I think that 
we need to make clear that our relationships with countries is 
based on a free trade aspect of this, and that we need to make 
clear how important our farming communities are, and to be as 
helpful as possible. I believe in that.
    Mr. Watkins. Thank you, ma'am. And in your testimony, you 
noted that this administration's approach to China, quote, 
could produce gains with signs of progress in recent days. Now, 
given that, what should be the next step, particularly with 
regards to China?
    Ms. Albright. Well, I do think that we have been worried 
about some of the things they have been doing in terms of our 
intellectual property and just generally in terms of how they 
operate. And I think that the trade talks, from what I can 
tell, have gone fairly deeply, and while they need to be 
continued, I think there is a question--the President postponed 
the time of raising the tariffs, and so I think we need to keep 
pursuing to have some kind of a fair system, but where what we 
do is to be able to protect our intellectual property. And I do 
know that they have said they were going to buy more 
agricultural products, soy beans, so I think that is a good 
idea.
    Mr. Watkins. Thank you, Madam Secretary. It is good to see 
you again.
    I yield my time, Mr. Chairman.
    Mr. Sherman. The gentleman from California is recognized.
    Mr. Bera. Thank you, Mr. Chairman.
    And I will reiterate my colleagues in thanking you, Madam 
Secretary, for your service. I would also recognize, and I 
think you would agree with this, the men and women of our 
foreign services, our diplomats, our civil servants, our aid 
workers around the world, the tremendous work that they do 
representing us, and really just want to acknowledge to them 
that this body appreciates what they do every day, and the 
NGO's that also project American soft power and presence around 
the world.
    Secretary Albright, in your written testimony, you talked 
about that there was some concern about the foreign policy 
decisionmaking process, and I would second that. And I will use 
two examples, you know, recent examples, and also about a year 
ago. If you think about the decision to withdraw from Syria, I 
was in the region in December, met with our special envoy to 
ISIS, Brett McGurk, and talked to our commanders in the field, 
and they are prosecuting their mission very well.
    Nobody seemed to have any idea that a public statement was 
going to be made by the administration. If I infer from 
Secretary Mattis' decisions, it did not appear that Secretary 
Mattis had been consulted. We know from testimony on the Senate 
side, General Votel had no idea and was not consulted on this. 
And it is of deep concern. Let's separate the actual decision, 
there is a deep concern amongst myself and I hope everyone on 
this committee, that there is not an interagency process that 
seems to be taking place as major policy decisions are being 
made.
    I would say the same thing about a year ago when a decision 
to support the Saudis and the Emiratis on their blockade of 
Qatar. You heard mixed signals coming out of the 
administration, Secretary of State, Secretary of Defense 
saying, no, we are not going to take sides; the President of 
the United States taking sides.
    You know, from your time at State, what would the right 
interagency process look like, and where should we, from an 
oversight perspective, dive into this?
    Ms. Albright. Well, I have been fascinated at the 
decisionmaking process and participated in it. So it is one of 
my subjects that I spend a lot of time on. And since the 1947 
National Security Act, there has been a process. Each President 
puts a somewhat different spin on it in terms of their own 
proclivities and how they like to do business. But the bottom 
line is the U.S. Government makes thousands of decisions a day. 
The harder the decision, it gets pushed up the line. And the 
hardest ones go to the National Security Council in order to be 
able to present a proposal to the President.
    And the very important part is how those decisions are set 
up, prepared by an interagency process, and then having a 
meeting of the principals committee, which means the Cabinet 
members that the National Security Advisor runs. And the best 
meetings, the ones that I have witnessed or studied, are the 
National Security Advisor makes a point of finding out how 
different departments feel about it.
    I kind of talk about it as breaking the eggs so that you 
really--and then the National Security Advisor would like to 
make an omelet out of them to give to the President. If you 
cannot make the omelet, then you go and meet with the President 
and go over the decisions again and present your different 
views. That, from everything that I can tell, is not taking 
place. There are some questions as to whether--I mean, I do not 
know anything beyond what I read in the papers, but whether 
there have been principals meetings.
    I think the Syria decision, and I am sorry that I could not 
answer before, I do not think we have done Syria right. I think 
there are many issues, and they go back to any number of 
aspects of it. But the part that was really ridiculous was 
having different members of the Cabinet say something 
different, so that we did not have any idea what the policy 
was, thereby making ourselves look completely inept. And the 
kinds of things--not just Secretary Mattis and various people--
but, I mean, on any hour of the day you did not know what U.S. 
policy was, and that is the result of a nonexistent 
decisionmaking.
    Mr. Bera. And that has to be of deep concern to us, and 
certainly deeper concern to our allies if they do not know what 
our policy is and how that policy is being discussed and made, 
you know. I have the privilege of being the subcommittee chair 
on Oversight and Investigations, and certainly one of the 
things that we want to do is take a deep dive and a deep look 
into how these decisions are made, and we do think there is a 
congressional role in this. And if we are all speaking with one 
voice in a bipartisan way, we may or may not agree with the 
policy, but if we actually understand the thought and decisions 
that went behind that policy, it does project our soft power 
and our commitment both to our allies, but to the rest of the 
world, in a much more positive way. So thank you for that 
comment, and we look forward to----
    Mr. Sherman. Thank you.
    The gentleman from New York.
    Mr. Zeldin. Thank you.
    I would like to thank Chairman Bera for his remarks. I 
certainly agree with that sentiment of having a bipartisan 
analysis of foreign policy decisions.
    And, by the way, thank you, Madam Secretary, for your great 
service to our country over the course of many years. You would 
be hard-pressed to find any Member of Congress that does not 
have respect for all of your service to our country, so thank 
you.
    Some of the observations with regards to an absence from 
the national scene or an odor of American absence of 
leadership, I do not want to misquote you, but some of the 
statements that you made today. We can have a difference of 
opinion on decisions that President Trump makes in some cases 
where the President might withdraw from the Paris climate 
accord. You can argue that that is taking a step back from 
American leadership, others are strongly in support of the 
decision. I think it is really important to note, which is part 
of the scope of today's hearing, that there are many decisions 
that were made that it was America stepping up and being more 
involved and showing more leadership.
    And earlier you say the USMCA, as one area with regards to 
Canada and Mexico, where it was a tough negotiation, and there 
were improvements that were made to an agreement that was 
decades old, and it certainly was not easy in dealing with 
allies. I believe that withdrawing from the Iran nuclear deal 
was American leadership, and obviously, you would argue the 
opposite. But, you know, I have strong opinions as to why we 
should have withdrawn from the Iran nuclear deal. Moving the 
embassy in Israel to Jerusalem, I would argue, was showing 
American leadership.
    ISIS is almost completely wiped off the map in Iraq and 
Syria, which is fantastic. This is something that has been 
going on, an effort over the course of a few years. But that 
map, just a few years back, looked really bad as far as the 
amount of territory that they controlled. The decision to use 
the MOAB in Afghanistan. I was in Afghanistan right after that 
decision was made. It was one that helped American forces, 
coalition forces, and it raised morale amongst the troops that 
I was speaking with. Passing the Taylor Force Act through 
Congress and then getting signed by the President, because 
there is a pay-to-slay policy amongst the Palestinians to 
financially reward terrorism.
    Congressman Cicilline brought up a great point with regards 
to the LGBT situation in Chechnya. That is a huge concern. But 
I think it is also important for us to acknowledge that it was 
just a week ago that there was an announcement made amongst the 
Trump administration led by Ambassador Grenell of Germany to 
start a global campaign toward decriminalizing LGBTQ all across 
the entire world, and I think that we should acknowledge that 
effort from a week ago and then decide--figure out how we can 
be helpful for that effort.
    I believe the American involvement in Venezuela, the 
support for the Venezuelan people and recognizing Guaido, is 
the Trump administration showing more leadership, not less. In 
August 2017, with regards to North Korea, the U.N. Security 
Council voted unanimously to increase sanctions, and China and 
Russia ended up voting with us. And I credit Ambassador Haley 
and her team and the Trump administration for their efforts to 
get that vote, but obviously there is a lot of other dynamics 
and complications as it relates to North Korea. We are having 
this hearing while the President and his foreign policy team 
are in North Korea.
    So while we are having a really important hearing where 
opportunities are going to be taken to share, it could be 
frustration or criticism with certain decisions the President 
made, because that is a congressional role with oversight, and 
it is important for us to do that.
    I just wanted to use my brief time just to cover a few 
other topics that are going on that, I would argue, are 
important for American foreign policy, even if we might 
disagree with some of it. So I just think there was a few more 
topics to add to today's discussion.
    And once again, thank you for your great service to our 
country, for being here today, and the United States, really. I 
was a couple years younger when you were serving as Secretary 
of State, an honor to meet you in person, but I think our 
country is better off that you have dedicated so much time in 
your life toward the United States and global foreign policy 
and so many great causes.
    I yield back.
    Ms. Albright. Thank you very much. And if I just might say, 
I do think it is important to think about the unintended 
consequences of foreign policy decisions, and we all need to 
work on that more. I believe in executive legislative 
partnership on foreign policy, and I believe in bipartisanship, 
and I proved that by being very good friends with Senator Jesse 
Helms.
    Chairman Engel [presiding]. Thank you.
    Mr. Espaillat.
    Mr. Espaillat. Thank you, Madam Secretary, for your many 
years of service and your commitment to our Nation and 
democracy across the world. At this very same committee last 
hearing, we heard from Elliott Abrams. He sat right where you 
are sitting and provided testimony and answered questions 
regarding the administration's actions and intent toward 
Venezuela.
    Despite his attempts at reassuring us, I am still 
particularly worried about his involvement in our efforts to 
support the people of Venezuela. This country has a long and 
dubious history of interfering militarily in Latin America, and 
Mr. Abrams himself played a particular role in that story.
    President Trump has frequently appointed individuals who 
are the anthesis to their positions in making high-ranking 
positions across our government. Yet the appointment of an 
individual who was criminally charged for lying to Congress 
about his role in arm sales to fund a coup in Nicaragua seems 
to particularly be irresponsible, even for Mr. Trump.
    Are you concerned that Mr. Abrams' past participation in 
Iran-Contra disqualifies him as an impartial arbiter, if you 
may, in this particular conflict in Venezuela?
    Ms. Albright. Well, I think that I would not have named 
him, but I do think that the President has the right to name 
the people that he wants.
    Mr. Espaillat. As a refugee yourself--and I have read about 
your particular story, a very compelling story, and one that I 
think should enlighten all of us during these troubling times. 
Do you mind sharing your view on how we are treating folks that 
are coming up to the border seeking asylum, many of them 
obviously running from violence, running from gangs, and 
natural disasters and the like?
    Ms. Albright. My short answer is it is un-American. That I 
really do believe that this country has had a generous policy. 
I do think every country has a right to make its immigration 
policy, and I wish that there would be a comprehensive bill to 
do with immigration.
    And I have to tell this story. One of my favorite things in 
life is to give people naturalization certificates. And the 
first time I did it was July 4, 2000, at Monticello. I figured 
since I had Thomas Jefferson's job I could do that. And so I 
hear this man leaving, and say, can you believe it? I am a 
refugee and I just got my naturalization certificate from the 
Secretary of State. And I went up to him, and I said, can you 
believe that a refugee is Secretary of State?
    I think our country is about welcoming people, and what is 
going on at the border is un-American, separating the children, 
having no process, absolutely appalling. And I do hope that you 
all address that.
    Mr. Espaillat. Thank you. Let me go back to Mr. Abrams. 
Many in Venezuela, the folks that are fighting for democracy 
there, have been asking for arms there. Many feel they should 
be able to protect themselves in the fate and the likes of what 
the Maduro regime is perpetrating against them.
    First of all, do you think that that is advisable? And are 
you concerned that Abrams is at the helm, and he already did 
something like this in the past, and he may again engage in 
this type of behavior?
    Ms. Albright. Well, I think that we do not need to add more 
arms there. I am not for--I am for assistance, I am for 
negotiation, I am for sanctions. I think we have to be very 
careful not to exacerbate the situation.
    Mr. Espaillat. And what about military intervention? I know 
that when you served as our Secretary of State, you were 
involved in some military actions in certain parts of the 
world. Do you feel that the crisis in Venezuela has reached a 
level where that could be a potential option?
    Ms. Albright. I think--I happen to agree that normally what 
is said is all options are on the table. But I do think at the 
times that I was involved in using force, which was in the 
Balkans, was really after a great deal of negotiation and 
attempts at various other solutions. I have not seen that. 
There have been--the way that we brought people to the table at 
Dayton, for instance, was with very strong sanctions and a 
number of different diplomatic efforts, and I do not think 
enough of that has happened at this point.
    Mr. Espaillat. And, finally, do you feel that the Maduro 
regime is a narco regime?
    Ms. Albright. I think that it has an awful lot in 
supporting corruption in a variety of different aspects in 
Venezuela. I think there is a genuine question about what 
happened in the elections, and I think that they certainly have 
had a lot to do with the drug trafficking and with corruption.
    Mr. Espaillat. Thank you for your service, Madam Secretary. 
Thank you.
    Chairman Engel. Thank you.
    Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman.
    Madeleine--Secretary Albright, thank you for being here, 
ma'am. I view this committee as the most important committee in 
Congress. And I say that because the right and strong foreign 
policy is good economics policy, it is good trade policy, and 
it is definitely strong national security. Therefore, welcome 
to the best committee in Congress.
    When you look at the world today, it is in the largest flux 
that we have seen since World War II, there is a tectonic shift 
in world powers we have not seen since World War II. Different 
countries are jockeying for different positions, as we see with 
the rise of China in the South China Sea and around the way 
they are going after the ports in the strategic areas around 
the world.
    Yet if we look over the past, and I cannot blame any 
administration, it is an accumulation of administrations over 
the last 30 or 40 years, that has let a country go from a very 
backward economy to one of the second strongest in the world. 
Yet some things have been left unchecked.
    You know, when Xi Jinping came to the Rose Garden in 2015, 
with President Obama, said that the South China Seas, the land 
that they were reclaiming, would never be militarized, yet at 
the same time, they are being militarized. Today, they are 
fully militarized. And then we see what is going on in the 
Middle East, over 70 million refugees, the largest number since 
World War II, and in our own hemisphere with Venezuela, over 3 
million or pushing 3 million. And we are going to have an 
influx of refugees at our borders this country has never seen 
before.
    Stating all that, and the flux--not the flux, but the 
assault against Western democracies with what China, Russia, 
Iran are offering, mainly China, socialism with Chinese 
characteristics. As far as I am concerned, it is still 
communism, it is in their name.
    And then with Xi Jinping in 2017, the 17th Chinese 
Communist Party Congress said the era of China has arrived. No 
longer will we be made to swallow our interests around the 
world. It is time for China to take the world center stage.
    Do you feel that is threatening and the right thing for a 
world leader to say?
    Ms. Albright. You have described a world, the diplomatic 
term for which is, it is a mess. And I do think that there are 
all those issues out there, and we keep harking back. And I 
think we need to look at what our various institutional 
structures are and the relationships.
    I am very worried with the kind of pulling back of America 
from a number of roles that the Chinese are filling the vacuum. 
They are on the march in many different ways, and Xi Jinping is 
using nationalism as a way to motivate his people when they are 
having a number of different problems. But the issue, and this 
is what has to happen, is to have--to be able to have areas 
where we try to find some cooperation, and then find the areas 
where we have to compete and make very clear what our views 
are.
    I am troubled, in reading the threats issue that the 
intelligence community put out, they state this very clearly, 
the Chinese problems, the Russian problems, and then areas 
where we need to look at regional stability. And the thing that 
I--I am very glad to be at this important committee, and I am 
very happy to continue whatever longer term discussions, 
because with all of you I think we have to look at what our 
policies are going to be that are relevant for this part of the 
time and not keep thinking----
    Mr. Yoho. Can I cut you off there because that is where I 
kind of want to go? Knowing the change in the world that is 
going on and all the conflicts that are going on, with your 
expertise, you history, knowing politics back in the 1990's, 
knowing it today, and it has changed tremendously, what would 
you advise this committee to direct foreign policy, you know, 
to counter China and the BRI, we did the BUILD Act to counter 
that, and this committee passed that, it got signed into law.
    What else would you recommend that this committee--because 
I want to set policies in place for 50 years down the road that 
an administration just cannot come in and change on a whim, 
that it will have to go through a committee of jurisdiction.
    Ms. Albright. I do think that one has to look at what the 
institutional structures are that we are working with and our 
decisionmaking process, but then also look to see to what 
extent we need international organizations, how we operate with 
them. Is the UN--does it need help without us cutting our 
funding? I think we have to take a very large picture in terms 
of the institutions. I would hope that you would actually ask 
members of the private sector and academia and people like me, 
former practitioners, to come and talk about what the various 
issues are and not get involved in policies that bring 
unintended consequences. We need some forward thinking 
together, and the private sector also has to be involved in it.
    Mr. Yoho. One of your colleagues that got elected, Donna 
Shalala, was here in the nineties. She said--I asked her how 
things were going here, and she goes, this is completely 
different than when I was here. It is toxic. It is all 
politics, not policy. And I think that is a great warning.
    Thank you.
    Ms. Albright. Yes.
    Chairman Engel. Thank you.
    Ms. Wild,
    Ms. Wild. Thank you, Mr. Chairman.
    Madam Secretary, it is an honor for me to be sitting on 
this committee and to be listening to your testimony. My late 
mother had the privilege of serving as a foreign service 
specialist under your leadership and was assigned to African 
affairs, and I am sure she would be thrilled to know that I am 
here today with you and that I was appointed vice chair of the 
Africa Subcommittee.
    I share Chairwoman Bass' concerns that African countries 
are often ignored or overlooked in our foreign policy 
positions, but that is not the subject of my question to you 
today. Let me switch gears.
    In August 2017, the Trump administration announced its 
intention to withdraw the United States from the Paris climate 
agreement which, of course, as you well know, was adopted in 
2016 to create a structure for nations to pledge to voluntarily 
reduce their greenhouse gas emissions and adapt to climate 
change. My primary concerns are these: One, it shows a clear 
disregard for the seriousness of climate change; but second, 
and within the province of this committee, it demonstrates a 
recklessness in backing out of an agreement that the United 
States made with our close allies.
    I would like you, if you would, please, to discuss how the 
allies of the United States reacted to President Trump's 
decision to withdraw from the Paris climate agreement. And 
also, what is the impact of us doing so with our allies in 
terms of our international standing and reputation for 
trustworthiness?
    Ms. Albright. I think it raises that very question, because 
so many agreements and diplomatic relationships are based on 
understanding and trust and living up to your word, frankly. I 
think both that and withdrawing from the JCPOA undermines what 
it is. Negotiations are negotiations, and people make 
compromises. And then if you walk away from them, why would 
they trust you on the next one?
    I actually think both of them are difficult, but the 
climate change, when you think about it, was done in way that 
left an awful lot of choice for each sovereign State. It was 
not kind of an order about everything. It was a setting up of a 
system to talk about things.
    I also know when we withdraw from agreements or are not 
there when treaties are being negotiated, we lose our position. 
You know, the international criminal--we may not agree with 
everybody, but issues when we are not there, we walked out of 
the land or did not pay attention to the landmine treaty or did 
not pay enough attention to the International Criminal Court. 
We have to be there, and I think that a lot of agreements like 
that are based on trust, and we have undermined our trust. We 
are the most powerful country in the world, and we are 
destroying the capability to deal with problems by walking away 
from issues that we have agreed to.
    Ms. Wild. So we lose our place at the table.
    Ms. Albright. Definitely.
    Ms. Wild. Can you discuss which countries have not ratified 
the Paris climate agreement, and whether the United States 
historically has aligned with the priorities of those 
countries, if you know?
    Ms. Albright. I cannot list them, but I do think that when 
we align ourselves that way, we are sending a message. They are 
not exactly the ones that we would like to have something to do 
with. What I do find fascinating, and I mentioned this earlier, 
is all of a sudden the Chinese are the leaders on this. And 
when we do not--when we are away from the table and we do not 
lead, somebody is going to step in.
    Ms. Wild. Thank you very much. I yield back.
    Chairman Engel. Thank you.
    Mr. Levin.
    Mr. Levin. Thank you, Mr. Chairman.
    It is so great to be with you, Madam Secretary, and I want 
to take this precious opportunity to ask you to think in broad 
and historical terms about the proliferation of nuclear weapons 
and the arc of history and what we have done as a country and 
what is going on in the world. I think you touched briefly on 
India and Pakistan earlier. They are fighting right now, and 
obviously, they both became nuclear weapons States in recent 
years. Now we have--you know, I am very sad that we withdrew 
from the Iran nuclear agreement, and I am very worried about 
Saudi Arabia trying to obtain nuclear weapons.
    So I wanted to ask you broadly about that, but in the 
context of our own actions about our own nuclear weapons and 
those of Russia and China. You know, recently, the President 
withdrew from the intermediate nuclear weapons agreement with 
Russian because they were not complying, which they were not, 
but it is hard to understand how that is a constructive 
response. And I am very concerned that if we are stalled over a 
period of, really, many years of not getting anything done 
ourselves, and also, with these many other States trying to 
develop nuclear weapons, we are setting the stage for disaster.
    So I wondered what your perspective on this situation is.
    Ms. Albright. Well, it is really, for me, that kind of was 
a witness to the evolution of nuclear weapons but also the 
agreements that were made, I think we have come to a very sorry 
state. I think one of the general themes here has been, and I 
have supported that, is that one has to look at what agreements 
are and then bring them up to date in any number of ways 
because they do not always suit the exact situation, but 
withdrawing from them is a mistake.
    And the New START Treaty is up for negotiation. And what is 
happening is the Russians are updating their nuclear weapons 
systems, doing all kinds of things that are of great concern to 
us. We are modernizing our nuclear arsenal, but I think that 
what it means is that we cannot withdraw from things. What we 
need to do is to update the negotiation on them. I would hope 
that we could commit ourselves to a New START Treaty or to 
negotiating on the basis of the New START Treaty.
    And I think partially the way that the treaties have been 
set up, they are supposed to deal with when there is failure 
and cheating. Withdrawing from them does not exactly help, and 
it is giving an excuse to the Russians to go forward with 
things. We need arms control treaties. We also need people. 
There used to be kind of a priesthood of people that really 
understood all the nuclear--all the arms control things. Some 
of those people are no longer around, but we really do need to 
give a lot of emphasis to arms control agreements. And it goes 
back to the previous question in terms of trust and things like 
that, and I think we are undermining our own strength by not 
paying attention.
    The other thing is nuclear proliferation is a multilateral 
problem, and we need to look at it from that perspective.
    Mr. Levin. You know that when we sold nuclear technology to 
the United Arab Emirates, they agreed to sort of a gold 
standard of nonproliferation language in that situation, and I 
am concerned about the Trump administration possibly selling 
nuclear technology to Saudi Arabia without that kind of 
guarantee. How do we--I really appreciate your comments about 
our own nuclear weapons and agreements with others about that. 
How do we lead on these problems of increasing numbers of 
nuclear weapons States?
    Ms. Albright. Well, we do have to have an agreement, the 1-
2-3, to really--and the Saudis, as far as I know, there has 
been no movement on that.
    Mr. Levin. That is right.
    Ms. Albright. And legally, we should not and cannot sell it 
to them. But I do think that we need to constantly keep looking 
at the nuclear nonproliferation regimes that are out there, and 
as I said, require a multilateral action. But I think we have 
to be very careful not to be those that help the proliferation 
of nuclear weapons, and that has a lot to do with what we are 
doing with North Korea and the stuff that they are selling to a 
variety of people. That is what people are concerned about is 
some sale from North Korea more to the Pakistanis or to the 
Saudis.
    Mr. Levin. Thank you so much. I yield back, Mr. Chairman.
    Chairman Engel. Thank you.
    Mr. Malinowski.
    Mr. Malinowski. Thank you, Mr. Chairman.
    It is wonderful to see you, Madam Secretary. I remember 
staffing you at these marathon sessions years ago, and now here 
I am with a chance to ask you some questions.
    I want to start by saying that I really appreciate your 
commitment to bipartisanship and your effort to give credit 
even to an administration that you are largely critical of on 
some issues. I have tried to do the same thing; largely 
supportive of what they are trying to do in Venezuela, for 
example. I think they, in some ways, are giving China more 
right than some previous administrations.
    But I do want to come back to a question that has permeated 
our discussion today, and that is what is happening to our 
moral authority in the world. Does it help us in the struggle 
for democracy and against dictatorship around the world when 
our President is calling our free press the enemy of the people 
or questioning the credibility of our own democratic elections 
or attacking the integrity of our intelligence community and 
our law enforcement community?
    Ms. Albright. I think it is very damaging, because I 
think--having spent a lot of time talking to a variety of 
foreign leaders and them basically saying, you mean you want us 
to do this, but what are you doing and saying? Our moral 
authority makes a difference. I think that one of the issues--
and I always like to refer back to my father. He believed that 
the U.S. needed a moral foreign policy. That is different than 
a moralistic foreign policy, which kind of dictates everybody 
what to do, but we do need to have our value system in place.
    And the press, a free press is the basis of democracy. You 
cannot call them the enemy of the people because it gives Putin 
a chance to say the same thing. So I am very much concerned 
about what kind of a model or example we set.
    Mr. Malinowski. In the same vein, I could ask does it help 
us stand up to the Maduro regime, which has turned Venezuela 
into a socialist country by issuing emergency decrees in 
opposition to the elected Congress of that country when we are 
issuing emergency decrees of ourselves?
    Ms. Albright. I have been troubled by that, because 
emergency decrees are sometimes used for the wrong purposes in 
order to exacerbate problems. I am very glad that the Congress 
voted against the emergency decree that President Trump put 
out.
    Mr. Malinowski. Thank you. On to the Senate.
    And I think that the bigger picture here, and we have not 
really brought this out thus far, is it is not North Korea, it 
is not Venezuela. These are individual crises. It is that we 
have two great powers, Russia and China, that are challenging 
the world order that we built and our moral authority to lead 
it. And it seems to me we are squandering some of our greatest 
advantages in that fight, our alliances with democratic 
countries that willing work with us. The example that we set at 
home, the consistency in the application of our principles 
around the world.
    I was there with you in Munich and heard Vice President 
Pence's speech, and one part of it that really struck me was 
when he asserted at the very beginning that America is back as 
the leader of the world, and virtually nobody applauded. Can we 
be the leader of the world if nobody follows?
    Ms. Albright. No. I mean, and that is the part of the thing 
that is terrible, is I cannot--and you were there. I cannot 
repeat how proud I was to represent the United States. And I 
think that the fact that we have given up on a lot of our 
principles and that people question our trustworthiness or what 
our motives are, I think is weakening us. And the 
responsibility of any President of the United States is to 
worry about our national interests, but they are being 
undermined by the way that we are treating our friends and 
allies.
    Mr. Malinowski. And would not you agree that President 
Putin's primary strategic goal with respect to the United 
States is to divide us from our allies and to break our moral 
authority?
    Ms. Albright. No question. And we forget that we are 
dealing with a KGB agent who knows exactly how to use 
propaganda, and he has now militarized information, and what he 
is doing is systematically undermining our friends and allies 
in central and eastern Europe. He developed another oxymoron 
term which is authoritarian capitalism, you know, or a liberal 
democracy. That is what he and Orban have in common. And I 
think he knows how to separate and undermine, and we have to 
push back on that because he--I have said this, he has played a 
weak hand very well, and we have played a strong hand poorly.
    Mr. Malinowski. Thank you.
    Chairman Engel. Thank you.
    Mr. Burchett.
    Mr. Burchett. Thank you, Mr. Chairman.
    Thank you, ma'am, for being here. By my accent, you 
probably think I am from New York----
    Ms. Albright. Definitely.
    Mr. Burchett [continuing]. But I am actually from 
Tennessee. It is very cool for me sitting here talking to you. 
I was just thinking--I am cutting into my time, but I think it 
is important--that in my pin collection I have a Muskie for 
President pin. I believe you were involved with that.
    Ms. Albright. Definitely.
    Mr. Burchett. I was 4 years old when that was going on, so 
I just wanted you to know that.
    Ms. Albright. I was a little older.
    Mr. Burchett. Yes, ma'am. That is all right. That is all 
right. And your story is very American. I was thinking of my 
momma, and she flew an airplane during the war. And she was 
kind of a nontraditionalist. I wish she was alive to see me 
sitting up here, say hello to you.
    But my question has to deal with China and dealing with 
their telecom giant. I believe it is pronounced Huawei.
    Ms. Albright. Huawei.
    Mr. Burchett. OK, thank you, ma'am. And as the carriers 
prepare to roll out the 5G wireless networks, officials have 
raised some concern that Beijing could use Huawei to spy on our 
various networks or even to disable them. It has been reported 
in a couple of instances. But this has led, of course, the 
Trump administration to press our allies to avoid using their 
equipment.
    I was wondering what your take was on that. And do you see 
them as a national security threat?
    Ms. Albright. Well, I am very concerned by Huawei because 
they are very much a part of selling component parts that 
undermine the whole system. And I am very concerned about 
something generally that we are not thinking enough about a 
cyber approach and what technology could undermine, and I am 
very glad that we are pushing back on this. But it is a problem 
because our friends and allies do have the same systems, and we 
have to figure out how to work with them on that.
    And by the way, I do think we need to also begin to look at 
some rules of how cyber works. So, you know, we had a 
conversation about arms control. We also have to think about 
what the next threat, and a lot of this has to do with 
technology, and there need to be some rules about that. I am 
concerned about Huawei.
    Mr. Burchett. Yes, ma'am. I am glad you said that. I do not 
represent it, but about 6,000 hardworking folks at Oak Ridge 
National Laboratory live in the district I represent, and I 
just this past weekend toured some of their--they have one of 
the worlds's largest computers, and I can assure you that 
cybersecurity is at the forefront of everything they were 
talking to me about.
    The next question I have was about NATO. And I know you 
addressed that earlier. And I apologize, Mr. Chairman, if this 
questionhas been asked before. If it has, you just say, I have 
answered it already. Go on to something else. But NATO, you 
know, we--apparently, the other countries have been expected to 
pay the 2 percent in the past. They have not, really. A lot of 
them have. I think we paid maybe 50-plus percent of the NATO 
budget.
    Do you think that the threshold this year--or do you think 
we are close to getting to that threshold with these other 
member countries?
    Ms. Albright. I think that this is an agreement that was 
made that they need to do it. I think a lot of people, however, 
do not understand what is being referred to. This isn't putting 
some money into a NATO pot.
    Mr. Burchett. Right.
    Ms. Albright. It is what they need to spend out of their 
own defense budgets in order to be part of the system, and I do 
think we need to keep pushing at it. And I think that--but not 
by bullying. I think it is a matter of trying to keep pushing 
them as partners and then to really look at what the threats 
are. So I am all for it. I think that they need to do it. I do 
not think it is as close as I wish it were to be, and I think 
we need to raise it, but it is more the tone of how it came out 
and some understanding, and I think the American people need to 
understand what we are talking about and how NATO works.
    Mr. Burchett. Yes, ma'am. It comes to mind a saying my 
mother used to say, and it skipped my mind right now, but it is 
something to do with it is a little easier to lure bees with 
honey than vinegar, so I can understand that. Thank you so 
much, ma'am.
    Ms. Albright. Thank you.
    Mr. Burchett. And I appreciate your--it is a great story. 
And if any of the young folks are watching this, I think they 
ought to research this lady, your grandparents, and where you 
came from in Czechoslovakia. I mean, it is just a really cool 
story. So thank you so much.
    Ms. Albright. It is a good American story.
    Mr. Burchett. That is what I said. I had it written--I 
wrote it in pencil up here.
    Ms. Albright. Thank you. Thank you so much.
    Mr. Burchett. Typically American. Thank you so much, ma'am.
    Chairman Engel. Mr. Burchett, I want you to know that I 
only called on you because I thought you were from New York.
    Mr. Burchett. Yes, sir. Well, I know. We have had this 
conversation. My accent threw you off a couple of times. You 
asked me where I was from up there, and I have never--I hardly 
get to north Knoxville, much less New York City, But I plan on 
doing it 1 day, and I am going to hang out with you 
specifically.
    Chairman Engel. Let me invite you.
    Mr. Burchett. Thank you, brother.
    Chairman Engel. We would be pleased to have you. Thank you.
    Ms. Omar.
    Ms. Omar. Thank you, Chair. Hopefully, I can join that 
invitation to visit New York as well.
    Madam Secretary----
    Chairman Engel. You are invited.
    Ms. Omar. Madam Secretary, it is such an honor to have you 
in this committee. And my apologies for having to run to 
another committee, but I am so glad we have this opportunity to 
chat.
    Yesterday in my office, I met with some veterans who are 
part of Common Defense. They are veterans of wars we have had 
in Afghanistan and Iraq. They asked me some questions that were 
a little puzzling to me, and I did not really have answers for 
them. Those that I met who served in Afghanistan were not 
convinced that after 18 years of fighting, Afghanistan was 
better off for our having been there. And the ones that served 
in Iraq, they spoke of the trauma inflicted on communities 
there, as well as their own traumas and the ravages of war that 
they have been subjected to. In Libya, we talked about some of 
the stories. We are reading about migrants who being sold into 
slavery and the complete horror that is being faced by Libyans 
trying to flee their country as refugees.
    What worries me as someone who survived war and understands 
the horrors of wars firsthand is that the planning of wars does 
not seem to genuinely consider the human toll it takes, and 
plans do not seem to be made for recovery, and our moral 
responsibility to the people of these countries does not seem 
to be taken seriously. So my question to you and something I 
wanted to explore with you, Madam Secretary, is about the 
decision to militarily intervene in a foreign country.
    When it is made, how much weight is given to the dramatic 
toll that is going to be inflicted on the innocent civilians in 
that war? I do not just mean the civilian casualties. I also 
mean to the extent we weigh the long-term impact that we will 
have after we get there.
    Ms. Albright. I think that one of the hard parts is trying 
to decide what tool you use in order to deal with a particular 
problem, and force is usually the last tool to be considered. 
And I have to tell you, things that I never thought I would 
have to do in my lifetime, either at the U.N. or as Secretary 
of State, to raise my hand in order to say that we needed force 
somewhere. It is something that I did in the Balkans because I 
thought people were being ethnically cleansed not for anything 
they did, but what religion they were. And so I think it was 
the right thing to do.
    Afghanistan was something that was the result of 9/11. The 
murderers came out of Afghanistan. I think the war kind of--the 
purpose of having troops there changed at a certain point. I do 
not think there was enough discussion about it. And I think 
that--I hope now that whatever agreements are made benefit the 
Afghan people and that it is done in a good way.
    Libya was an interesting example because, in fact, there is 
a new concept about responsibility to protect, which, if you 
know, that the leader of a country is killing his own people or 
calls them cockroaches, whether the international community has 
some responsibility for it. But I think you raise a very 
important point, which is that it is not just the moment of the 
force but what you do, how long you are there, do you continue 
to discuss it, and the decisionmaking process to what extent 
are the other parts of our government involved in it and not 
just doing it through the Defense Department. So I think you 
raise a very, very important point.
    Ms. Omar. Thank you. For the remainder of my time, I wanted 
to speak about some of the other tools that you mentioned, the 
tool of using sanctions. You know, some scholars and 
practitioners of foreign policy have questioned whether 
sanctions are effective at changing the behaviors of certain 
governments. There is also a perception that sanctions are 
easily avoidable by the rich and the powerful, individuals that 
we target in using those sanctions.
    So I wanted to ask you, do you believe that there is a risk 
in enacting sanctions because of the real and perceived harm 
done to the people of the country? Is it possible that the use 
of sanctions undercuts our national security by furthering 
anti-Americanism in the countries we target with sanctions?
    Ms. Albright. I cannot wait to go back to my class and tell 
them the questions you asked, because I talked about sanctions 
as a tool on Monday in class, and part of the thing is that 
there are not enough tools. We are the most powerful country in 
the world, and there are not a lot of tools. And sanctions get 
chosen often as kind of the middle tool. More bite than 
diplomacy, less bite than force.
    We have learned a lot about sanctions. We have learned that 
comprehensive sanctions, which we did in Iraq, hurt the people, 
and began to look more at targeted or smart sanctions. I think 
there are times they do work because what you are trying to do 
is change the behavior of a country. They need to be assessed 
at various times.
    The question is when do you remove them? Who is really 
affected by them? But it goes back to another whole question, 
is, does the United States get involved when we see terrible 
things happening in a country? Do we have a responsible 
international role? And I do believe in the importance of 
American action, and the question is which tool you choose. But 
they need to be assessed. It needs to be discussed about how 
they work together, which ones do you use when.
    But sanctions are often the tool of choice for obvious 
reasons, but I do think they need to be assessed in terms of 
whom who they really affect.
    Chairman Engel. Thank you.
    Mr. Allred.
    Ms. Omar. Thank you for your question. Thank your for 
giving me the extra time. I really appreciate it. Thank you.
    Ms. Albright. Thank you.
    Chairman Engel. Thank you.
    Mr. Allred.
    Mr. Allred. Hello, Madam Secretary. It is good to see you 
again. Thank you for being here today. I want to just say that 
I think that your story is the epitome of the American dream. 
And to anyone who is watching, who does not know your story, I 
would encourage them to learn about what brought you to the 
United States and the work that you have done here. And I want 
to thank you for a lifetime of service to our country.
    Ms. Albright. Thank you.
    Mr. Allred. And, you know, I am increasingly concerned that 
future Madeleine Albrights might not see their future in the 
United States, that our light abroad is dimming.
    And I represent an area that is deeply tied to our foreign 
relations and our foreign affairs. We are an area that has 
benefited from trade, and so when we pull back from trade or 
enact tariffs, it hurts my region. It hurts our economy. We are 
an area, and I have spoken with a lot of business leaders in my 
community who want the best and the brightest in the world to 
come to north Texas and to work in our businesses there, and 
they are deeply concerned at the decrease in foreign students 
coming to some of our universities. And Texas, of course, has 
some of the largest ports in the country, and in north Texas, 
we have one of the largest airports in DFW. So we are an 
international hub. And so what happens in our foreign affairs 
deeply affects my district and my State.
    And I wanted to ask you, and I know you have worked on this 
and spoken about this, and maybe you have spoken about it 
today, and I might have missed it. But I wanted to ask you what 
we can do in Congress to better inform the American people 
about the effect of our foreign policy on our domestic 
tranquility.
    Ms. Albright. I have to say it is the key point of all of 
this. We are such a large country and think that we are not 
affected by foreign policy. And one of the things that I have 
tried to do is make foreign policy less foreign in order to 
have people understand that our well-being depends on having 
international relations, in having a foreign policy. And so I 
do think that what is very important to do is to spend time 
explaining in everybody's district which is how are you 
benefited by trade or foreign policy, or if there is terrorism 
somewhere, to hope that it does not come to America, any number 
of different aspects of it.
    And I have said--and I am happy to repeat this in front of 
everybody--I am very willing to go to people's districts to try 
to explain why foreign policy affects our domestic life, that 
in this day and age, every American is somehow affected by what 
happens abroad. And for us to build walls or put--or moats or 
whatever undermines what we need in the world, is to be able to 
connect with other people. And trade is good for America, and 
technology, development, and any number of things, but we need 
to explain it better.
    I definitely--it is a vital part and most important for all 
of you. You are the ones that represent America, and so I think 
it is very important. I am happy to help in whatever way I can.
    Mr. Allred. Well, thank you, Madam Secretary. You are 
welcome in Dallas any time. We would love to have you, 
especially with some of my high schools, to talk about the work 
that you have done and how important our foreign policy is to 
what we are doing on a day-to-day basis.
    Ms. Albright. And the young people make all the difference. 
By the way, in my book, I always say there is not a speech or a 
book that is written that does not quote Robert Frost. So he 
said, the older I am, the younger are my teachers. And I am 
learning from my students, but I am very happy to go and be 
helpful.
    Mr. Allred. Yes. Well, thank you. And in my remaining time, 
I just want to address another theme that I think that has been 
discussed today, which is American withdrawal from 
international leadership. And I know you have maintained your 
connections. You were at the Munich conference recently, and I 
just want to ask, do you think that the damage that has been 
done is irreversible? And what concrete steps do you think 
Congress should be taking in these next 2 years to continue to 
repair some of those relationships and restore trust abroad?
    Ms. Albright. It is not irreversible, but it requires 
contact and experience, which is why I think having so many of 
you go to the Munich Security Conference as being very 
important. And I also hope that you all meet with your 
counterparts, parliamentarians from other countries. At the 
National Democratic Institute we are very interested in rule of 
law in the role of the legislative branches. And I just flat 
out invite you now to come with us on some of our election 
observing missions and to do a variety of things. They need to 
see what America really looks like and how you want to be 
helpful in this and that we need to have leadership.
    So please, I think it is a very--codels. I was talking 
about that earlier. I think it is a very important part. There 
was a time that there were Members of Congress that were proud 
not to have passports. Please, you know. So I do think you guys 
need to get out there. So any time.
    Mr. Allred. Thank you Madam Secretary.
    Thank you, Mr. Chairman--or Madam Chair.
    Ms. Spanberger [presiding]. The chair recognizes the 
gentleman from Maryland, Mr. Trone.
    Mr. Trone. Madam Secretary, thank you again for your 
patience today. It has been a long day today.
    Ms. Albright. It is a lot of fun, I have to say.
    Mr. Trone. I have been really struck by your tremendous 
leadership with compassion, leadership with civility, and 
leadership and bipartisanship. And I will tell you, that is all 
in short supply here.
    Ms. Albright. Yes.
    Mr. Trone. So thank you very, very much. We talked about, 
followup on Mr. Malinowski's point earlier, about America's 
reputation. We think about how President Trump in Venezuela has 
held them to standards, held Maduro and held his feet to the 
fire, but at the same time, to juxtapose that in the 
Philippines, in Russia, in Korea. We have had elections stolen. 
We have not held anybody to the fire of truth. And do you think 
that lack of consistency causes us irreparable harm to our 
reputation?
    Ms. Albright. I think it does, and it is very hard to 
follow. I mean, the hard part is to figure out what the 
strategy really is, and even though there is documents--I mean, 
what I found interesting is that the Trump administration put 
out its National Security Strategy very early. The question is 
to what extent is it being followed. And we do confuse people 
very much. And I think it goes to the points about trust, what 
our leadership role is, what our relationships are, and I do 
think consistency is something that would help.
    Mr. Trone. Yes. It really drives at competence at the end 
of the day.
    Talk about Saudi Arabia a second. I have been concerned 
that--you mentioned earlier the bone saw. The situation with 
Khashoggi. We think about what has happened with Qatar. We 
think about the dissidents that have disappeared in Saudi 
Arabia and taken away. We think about the theft of probably 
$100 billion from other Saudis locked in the hotel. We think 
about the Prime Minister of Lebanon who has been kidnapped. And 
then we think about Yemen; over 100,000 folks are dead, 
probably 20-some million on the brink of starvation. We have a 
33-year-old Crown Prince that is--you know, the country has 
been our ally, but we have a tremendous amount of arrogance, 
perhaps driven by age, perhaps driven by wealth beyond 
imagination.
    What should we be doing about this? Should we just say, oh, 
it is OK, and let it go? Because once we do that, my concern 
is, for 50 years, your grandchildren and their grandchildren 
will have to deal with this.
    Ms. Albright. I think the hard part about State craft is 
trying to figure out how you say what is your value system, 
what you believe, everything, and at the same time, recognize 
that sometimes you have to have a relationship with a 
leadership that you disrespect or do not like or whatever. I 
think we need to make very clear that the actions that you have 
talked about are unacceptable, and at the same time, try to 
keep a relationship with Saudi Arabia. That is very hard. That 
does not mean selling arms to them, but trying to sort out how 
you can do both things, you know, kind of this, at the same 
time.
    And basically, I do think that we need to keep calling out 
what happened on Khashoggi and what our intelligence 
communities have been saying and not deny that those kind of 
things are going on. But it is Franklin Roosevelt who 
established the relationship with Saudi Arabia. Never was 
simple. We need to figure out where we have to tell it like it 
is and, at the same time, maintain some relationship.
    I have felt it is a mistake always to cutoff relations with 
a country or not have that conversation, because that is what 
diplomacy is about.
    Mr. Trone. I agree with you. I think we need to continue 
the conversations and be relenting in our open discussion of 
what was right and what was not right, but at the same time, I 
do not think we should just accept the fact that this behavior 
can go on unchecked.
    Ms. Albright. No. I agree. And I think kind of having 
normal, smiley discussions with the Crown Prince is not the way 
to go.
    Mr. Trone. Anything we can do to mitigate the damage to the 
America First policies?
    Ms. Albright. I think by recognizing that we believe in 
partnership with others, but that is again--I do not mean to 
put everything on your shoulders, but I really do think that 
the role of Congress in this is key. And when you all can 
explain what we are really about, I think it makes a big 
difference. Your role in all national security policy and the 
kinds of things that people say. And I do think one of the 
aspects in terms of understanding that America, actually, we 
are great, and that our greatness has come from understanding 
partnerships and respecting our friends and allies.
    Mr. Trone. Thank you, ma'am.
    Ms. Albright. Thank you.
    Ms. Spanberger. The chair recognizes my friend from 
Pennsylvania, Representative Houlahan.
    Ms. Houlahan. Thank you, Madam Chair.
    And thank you, Secretary Albright, for coming. It is a 
pleasure to see you again and a real privilege to have this 
conversation.
    I have two separate questions that are fairly disparate, so 
I am hoping that I have enough time to get to both. The first 
one has to do with women and girls and particularly the fact in 
2019, Fiscal Year 2019, we appropriated $10 million to fund the 
Ambassador-at-Large for Global Women's Issues, and apparently 
this position still remains open to this day. So I am wondering 
if you could be helpful in elevating what it is that this 
special envoy should do and why we should continue to fund this 
initiative given that it has not been filled.
    Ms. Albright. Well, I have to say that when I became 
Secretary, I was the first Secretary to put women's issue 
central to American foreign policy, not just because I am a 
feminist, but because I know that when women are politically 
and economically empowered, societies are more stable. Then the 
whole position was created, which I think is very important. 
And frankly, you know, in most countries, more than half the 
population is female, and so we are undercutting our own 
national interests by undermining that.
    I also do think--and by the way, what I am very proud that 
the National Democratic Institute does is support women 
candidates in--across the board in countries and trying to 
figure out how to be helpful when they are harassed in their 
countries, working with the United Nations on that. So I think 
that we need to see the issue from two ways. One is what makes 
it better for U.S. national interests, and then obviously the 
fact that I do think that the world is better off when women 
are equally empowered.
    Ms. Houlahan. I could not agree with you more. And my 
second line of questioning has to do more with cyber and bio 
security and a little bit about what you talked about in your 
opening testimony regarding sort of the decimation of the State 
Department. I had the privilege of going to the Pentagon on 
Monday for almost a full day tour, and a very senior ranking 
member of the Secretary of Defense's office was asked about the 
state of the relationship between the Pentagon and the State 
Department, and he said it had never been better in his entire 
career. And he thought that there were no problems and no 
hiccups in their relationship.
    And so I would love it if you could talk a little bit about 
the sort of line level and staff level state of affairs in the 
State Department, and also how it relates to cybersecurity and 
our ability to stay secure in that space.
    Ms. Albright. I do think the importance of a relationship 
between State and Defense is essential. And one of the things 
that I have to say, Secretary Mattis said that if the State 
Department was not funded, he would have to get more ammunition 
and a real understanding of that relationship.
    I do think that across the levels there are a lot of 
department discussions between State and Defense. I think the 
problem at the moment is that some of the people in the Defense 
Department do not have a counterpart in the State Department 
and that they end up then doing what State should be doing, 
Defense begins to do. And so I do think--and this goes back 
again to the funding of the State Department and having people 
there. I also do think that specifically on areas like cyber, 
which obviously have a lot of technical aspects to them, also 
have diplomatic parts in terms of negotiating with other 
countries about what is acceptable, what is not. The question 
about Huawei, for instance, or how the Russians are using their 
asymmetrical tools in countries and then the diplomatic part.
    So we have those two departments for a reason, but one is 
operating--I have to say I am for a strong defense, but the 
difference in terms of $700 billion and something just under 
$60 billion is a little off base.
    Ms. Houlahan. I very much appreciate your time. And I yield 
back the balance of my time to madam chair.
    Ms. Spanberger. The chair recognizes the gentleman from 
Virginia.
    Mr. Connolly. I thank the gentlelady from Virginia, and I 
am proud to call her madam chair.
    And welcome, Secretary Albright. Great to see you again. I 
think I saw you a little over a week ago in Munich at the 
security conference. And I do not know about you, but I was 
really struck by sort of the evolution in reactions among our 
allies in Europe to the evolution of diplomatic and foreign 
policy here in the United States. I would say 2 years ago, 
there was anxiety, there was consternation. There were 
questions. There was the seeking of reassurance. This time, led 
by the Chancellor of Germany herself, Angela Merkel, I saw a 
sort of anger and defiance and resistance, frankly, to the 
abrogation of U.S. leadership and the evisceration of policies 
and treaties that were, in fact, initiated by and presided over 
by the United States.
    I do not mean to put words in your mouth, but that was my 
observation. Big, big change in 2 years in terms of where our 
allies are vis--vis current United States foreign policy. And I 
think Mr. Pence, the Vice President of the United States, got a 
dose of that with the complete and utter silence in response to 
his speech, unlike Angela Merkel who criticized the United 
States specifically on JCPOA, on the Paris climate accord, on 
even naming a German auto manufacturer a threat to the national 
security, and she got a standing ovation.
    Your observation.
    Ms. Albright. I have been to many of the meetings, and I 
was appalled at what was going on in terms of kind of a sense 
of, who are these people? What happened to America? And I was 
so glad that you all were there, because I think that it made 
really clear that we did care, but it was as a result of kind 
of an American approach to things, of bullying and name calling 
and not understanding what the role is.
    I am not saying the Europeans are always easy to work with, 
but I do think that this was particularly an uncomfortable 
time, an embarrassment, if I might put it that way. I have seen 
some official releases of a transcript of the Vice President's 
speech, and you know how they often have in parentheses--it had 
parentheses, applause, and I thought where the--you know, who 
wrote that? So I do think that it was an embarrassing kind of 
time, and I do think it is an important convocation of people. 
And so the fact that you were there made a big difference, but 
your analysis of it totally matches mine.
    Mr. Connolly. I thank you, Madam Secretary. If I may, in my 
remaining time, I want to talk about refugees. One of the most 
disturbing aspects, among many, in the foreign policy of this 
administration is its hostility toward refugees. Here we are, 
you know, the Statue of Liberty. You come from a refugee 
family, Madam Secretary, as do millions of Americans, and yet 
we have gone from 100,000 level of refugees under the last year 
of the previous administration to a ceiling, a proposed ceiling 
of 30,000----
    Ms. Albright. Yes.
    Mr. Connolly [continuing]. In this next fiscal year. What 
is wrong with that? What is wrong with limiting the number of 
refugees? And what are the consequences of doing that, from 
your point of view having served, of course, as Secretary of 
State?
    Ms. Albright. Well, first of all, I think it is inhumane 
toward the people that want to come in and the many refugees 
that have been created, and so I think it is, frankly, un-
American. We are a humane society. People want to be helpful to 
each other.
    I think that the other part that makes it a problem, and we 
are not the only country, I think, that is being less than 
generous on this. It makes it very hard when America says you 
need to let in more people, and meanwhile, we are cutting our 
own numbers. So we are losing our authority on it.
    I do think it is very important for there to be some 
comprehensive immigration legislation. I think it is a 
complicated issue, and as you know, there are distinctions 
between refugees and immigrants and a number of different 
aspects. And there are a lot of studies that have been done, I 
have been a part of a lot, and how technology can now help in 
identifying people, any number of things. And there is a 
commission--I will be very happy to send that report over.
    But I am appalled, frankly. And I describe myself as a 
grateful American. And everything about the possibility of 
having come here as an 11-year-old and understanding democracy 
in America's role. So I do think we need to do something to 
really not have the Statue of Liberty weep.
    Mr. Connolly. And speaking of that, and then I will end, 
but I welcome your support. I have introduced a bill called the 
Lady Liberty Act, picking up what you said, which, by the way, 
is H.R. 6909, and that would say, oh, no, no. The President 
gets to set the limit, as he does currently; however, that 
limit can never fall below 100,000.
    Ms. Albright. Yes.
    Mr. Connolly. And I welcome your input, if not your 
support, on trying to get that bill to the floor. I thank you.
    And thank you, Madam Chairman.
    Ms. Albright. Thank you for doing that.
    Ms. Spanberger. I will recognize myself for 5 minutes.
    And, Secretary Albright, it is such an honor to have you 
here with us today. I thank you for your time, and I thank you 
for the opportunity to ask a few questions.
    I am a former intelligence officer, and some of the 
greatest accomplishments of my life have been knowing that the 
information I was out collecting would inform our diplomats and 
our policymakers on issues that are complicated and difficult 
and nuanced. And last week--or last month, excuse me, following 
the intelligence chief's annual threat testimony, you said you 
were stunned by the President's immediate and vehement 
dismissal of their assessments and by his overall regular 
attacks on the integrity and the trade craft of American 
intelligence officers.
    I am deeply concerned about what appears to be a growing 
disconnect between our political and our intelligence leaders, 
in particular, because I see that it undermines the ability of 
our lawmakers, of our diplomats, of American leadership to make 
informed, strong, quality decisions based on intelligence that 
was collected by people, by Americans who risked their lives to 
get it. And in light of this week's summit on North Korea, my 
question is, do you have an opinion of how we as Members of 
Congress can help ensure that the White House is receiving and 
considering the intelligence as part of the administration's 
policy formulation? And if that is not possible, as a former 
diplomat and as a teacher, do you have recommendations for what 
we as Members of Congress and as those with a platform within 
our own communities can do to ensure that the American 
population understands the value of intelligence in the way 
that it informs and the value of diplomacy in the way that it 
helps protect our communities and the way that it is a vital 
portion of our national security efforts?
    Ms. Albright. It is a key part of our national security 
efforts, and I had--well, first of all, what I truly miss not 
being in the government is the intelligence. And I would read 
the papers, and then I would come into my office, and there 
would be the State Department INR part, and then the 
intelligence person would come in and brief me, and read the 
PDB and all kinds of things, and I always thought, gosh, I wish 
I could spend hours all day doing this. But the greatest 
respect for the intelligence community. Leon Panetta at the 
time asked me to be on the CIA External Advisory Board, which I 
did with General Petraeus and John Brennan. I am no longer on 
that, but it was a way to understand what the intelligence 
community did.
    And I think something that is very important in terms of 
all the work that is done on open source and all the 
information that is out there, and it is impossible for the 
government to operate without having that kind of knowledge. 
And I think that what needs to happen is obviously the funding 
of the intelligence community, but also the respect for the 
intelligence community. And I think one of the things that the 
External Advisory Board was there to do, because that is what 
Panetta thought, was to try to explain it more to Americans. 
And I think that that needs to happen, is that it should not--
not the product so much but the fact that it is important. How 
can you possibly make policy without both kinds of 
intelligence, frankly? But I think that it is very important.
    And I think your coming here and being a Member of Congress 
is also a very important part in terms of being able to explain 
what it really does. So I will do my best to keep talking about 
the importance of intelligence.
    Ms. Spanberger. Well, thank you, Madam Secretary, for your 
comments, for your insights, and your continued service to our 
country.
    Thank you to the members of this committee. The hearing is 
now adjourned.
    [Whereupon, at 1:01 p.m., the committee was adjourned.]

                                APPENDIX
                                
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
